<html>
<title> - U.S. POLICY TO COUNTER THE LORD'S RESISTANCE ARMY</title>
<body><pre>[Senate Hearing 112-476]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-476
 
                       U.S. POLICY TO COUNTER THE 
                         LORD'S RESISTANCE ARMY 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-023 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Acaye, Jacob, former LRA abductee, Gulu District, Uganda.........    31
    Prepared statement...........................................    36
Coons, Hon. Christopher A., U.S. Senator From Delaware...........     1
Dory, Amanda, Deputy Assistant Secretary of Defense, African 
  Affairs, Department of Defense, Washington, DC.................    13
    Prepared statement...........................................    14
Gast, Hon. Earl, Assistant Administrator for Africa, U.S. Agency 
  for International Development, Washington, DC..................     9
    Prepared statement...........................................    10
Inhofe, Hon. James M., U.S. Senator From Oklahoma................     4
Isakson, Hon. Johnny, U.S. Senator From Georgia..................     4
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............    25
Okot, Jolly, regional ambassador, Invisible Children, Kampala, 
  Uganda.........................................................    27
    Prepared statement...........................................    29
Yamamoto, Hon. Donald, Principal Deputy Assistant Secretary of 
  State for African Affairs, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7


              Additional Material Submitted for the Record

Responses of Deputy Assistant Secretary of State Donald Yamamoto 
  and USAID Assistant Administrator Earl Gast to Questions 
  Submitted by Senator Richard G. Lugar..........................    43
Responses of Deputy Assistant Secretary of Defense Amanda Dory to 
  Questions Submitted by Senator Richard G. Lugar................    46

                                 (iii)

  


           U.S. POLICY TO COUNTER THE LORD'S RESISTANCE ARMY

                              ----------                              


                        TUESDAY, APRIL 24, 2012

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Coons (chairman of the subcommittee) presiding.
    Present: Senators Coon, Isakson, and Inhofe.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to chair this hearing of the 
African Affairs Subcommittee examining U.S. policy to counter 
the Lord's Resistance Army.
    I would like to welcome my good friends, Senator Isakson, 
Senator Inhofe, as well as our distinguished witnesses today: 
Principal Deputy Secretary of State for African Affairs, Donald 
Yamamoto; Assistant Administrator for Africa of USAID, Earl 
Gast; and Deputy Assistant Secretary of Defense for African 
Affairs, Amanda Dory. Thank you very much for being with us 
today and welcome.
    And our second panel: Ms. Jolly Okot, Regional Ambassador 
for Invisible Children; and Mr. Jacob Acaye, a former LRA 
abductee who will share with us on the second panel their 
personal experiences of working to help communities in Uganda 
recover from the LRA and their personal experiences of being 
victimized by the LRA, which I think will add some strength and 
breadth to today's hearing.
    As we all know, for more than 2 decades the Lord's 
Resistance Army has committed brutal attacks against civilians 
in central Africa that have destabilized the region, resulted 
in systematic killings, displacement, kidnapping, mutilation, 
and rape. Joseph Kony and his commanders have abducted tens of 
thousands of children to serve as child soldiers and sex 
slaves, forcing them to commit terrible acts. And today, as I 
mentioned, we are privileged and humbled to hear from two 
victims of the LRA, Jacob and Jolly, both about their enduring, 
horrific experiences in Uganda and their courageous efforts to 
move forward and to make positive change in the world from that 
experience.
    Joseph Kony epitomizes the worst of mankind and evil in the 
modern day, and as I mentioned, while the LRA has left Uganda 
in 2006, it continues to burn a path of destruction through the 
whole region. As you can see from this chart, in the past 4 
months alone, the LRA has committed 132 attacks in three 
countries, the Central African Republic, the Democratic 
Republic of the Congo, and South Sudan, despite an increased 
U.S. presence and regional efforts to counter them.
    There has been and continues to be broad and bipartisan 
support for stopping Kony. This was demonstrated in May 2010 
with the overwhelming passage by Congress of the Lord's 
Resistance Army Disarmament and Northern Uganda Recovery Act, 
which made it U.S. policy to work with regional governments to 
remove Kony and his top lieutenants from the battlefield and 
protect civilians.
    There is also bipartisan support for the recent deployment 
of 100 U.S. military advisors which just yesterday President 
Obama in his speech at the Holocaust Museum announced would 
continue in their mission to train regional militaries.
    Bipartisan support for this issue is so strong that six of 
my colleagues on both sides of the aisle, including the two 
Senators with me on the dais at the moment, joined last week in 
releasing a video about the Senate's longstanding commitment to 
countering the LRA that I would like to make a part of these 
proceedings. And with the consent of the other Senators, I had 
hoped at this point we would show that video for the benefit of 
this hearing today.
    [The transcription of the video follows:]

    Senator Coons. In the last month, tens of millions of young 
Americans have stepped up to take on a humanitarian crisis on the other 
side of the world. The attention has been unparalleled. The level of 
interest is unprecedented and it hasn't gone unnoticed.
    I'm U.S. Senator Chris Coons of Delaware and I'm the chair of the 
African Affairs Subcommittee of the Senate Foreign Relations Committee 
that meets here in this room on Capitol Hill. In hearings held here 
Senators have, for many years, tackled issues of justice, war, peace, 
and America's role in the world. And in particular, how to tackle the 
ongoing crimes against humanity committed by the Lord's Resistance Army 
and their leader, Joseph Kony. It's work that a broad coalition of 
Senators and Congressmen have worked on for many years, important work 
that continues today.
    Joseph Kony and the Lord's Resistance Army have wreaked havoc in 
Uganda and its central African neighbors for more than 25 years.
    Senator Isakson. He is now thought to be somewhere in the Central 
African Republic, possibly the South Sudan, maybe the Congo, but the 
area is tightening and he has been separated somewhat from his 
soldiers, which is a good sign.
    Senator Coons. For millions of Americans, the Kony 2012 Campaign 
was the first they'd heard of the LRA's terrible crimes. But many in 
Washington had been trying for years to get the world to notice and to 
act.
    Senator Leahy. I saw a report way back in 1997 by Human Rights 
Watch. It talked about the abduction of children by a heavily armed 
Ugandan rebel group called the Lord's Resistance Army.
    Senator Inhofe. I was working in Uganda when I found out that up 
north in the area called Gulu, this guy named Joseph Kony had been, for 
about 20 years, mutilating kids.
    Senator Landrieu. I remember knowing about it specifically in 2004 
when I, in fact, traveled to Uganda for the express purpose of looking 
into the terrible orphan situation and also seeing what I could do 
about the LRA running rampant at the time through that country.
    Senator Inhofe. What he did, he'd go out into the villages and he'd 
kidnap and he'd abduct children, turn the girls into prostitutes--and 
we're talking about 12- and 13-year-old kids--and then make soldiers 
out of the boys. And once the kids learned how to kill people, they had 
to go back to their villages and kill their parents and all their 
siblings and if they didn't do that, they cut their lips off and they 
cut their noses off.
    Senator Landrieu. It is beyond comprehension that this single man, 
with a relatively small group of followers, has been able to just run 
havoc through this part of the world.
    Senator Feingold. Well, I've heard of a lot of tragedies all over 
the world and in many places in Africa, Eastern Congo and Sudan and of 
course Darfur, but this was one of the worst in terms of brutality.
    Senator Coons. In 2009, frustrated by the lack of progress being 
made by regional forces, Senator Feingold introduced S. 1067, The 
Lord's Resistance Army Disarmament and Northern Uganda Recovery Act, a 
bill to make it the policy of the United States to work with 
governments in the region to stop the LRA and help central Africa to 
recover.
    Senator Feingold. We have to remember this isn't just about 
invading or military action, especially by the United States. It has to 
do with diplomatic efforts, it has to do with intelligence, and it has 
to do with restoring the lives and the situation of the people in the 
area affected. Especially in Northern Uganda.
    Senator Leahy. Senator Feingold's bill, the LRA Disarmament and 
Northern Uganda Recovery Act, which passed in 2010, was a real 
breakthrough.
    Senator Feingold. In a time when there's so much gridlock and 
partisanship, this is an issue that we have bipartisan support. It 
passed relatively easy. It was signed by President Obama.
    Senator Coons. Senator Feingold's bill laid the groundwork for 
President Obama's decision last fall to send a hundred U.S. military 
advisors to central Africa to help armed forces from Uganda, the 
Democratic Republic of Congo, South Sudan, and the Central African 
Republic to hunt down Joseph Kony and the LRA.
    Senator Isakson. On my trip to Uganda 2 weeks ago I met with some 
of the special advisors that are United States personnel in Uganda, 
advising the Central African Republic, the Sudan and Uganda. They're 
adding a great bit of ability to the troops over there and a great bit 
of intelligence.
    Senator Kerry. We are currently working with the Defense 
Department, the State Department, other agencies to try to figure out 
what we can do and how we can be more effective. And we're going to 
continue to work with the State Department and others in an effort to 
provide the focus on this issue.
    Senator Isakson. It may take time. You have to understand the area 
where he is thought to be is densely vegetated foliage. It has hardly 
any roads. There are no telephone poles. There are no lights at night. 
He's separated himself from a lot of his followers. So tracking him is 
difficult.
    Senator Inhofe. They're getting very, very close. Hopefully this 
will be the year.
    Senator Coons. President Obama, Congress, and our U.S. soldiers in 
the field aren't the only Americans determined to help stop the LRA. 
The Kony 2012 Campaign has inspired millions of young people to get 
involved in a humanitarian cause for the first time.
    Senator Leahy. Things that I heard about in 1997 finally the rest 
of the world is hearing about it. And they're hearing about it because 
of students and citizens in Africa and across America who have taken 
the time to watch and learn and share information about Kony.
    Senator Isakson. I'm proud of our young people in America who are 
so compassionate about the African children and the African people, and 
I'm proud to be a part of the United States Senate that's seeing to it 
that we go after him and try and make sure he's brought to justice.
    Senator Coons. Last month, we introduced a resolution in the 
Senate, S. Res. 402. In it, we condemned Joseph Kony and the Lord's 
Resistance Army for their horrific crimes against humanity.
    Senator Leahy. We can all work to help victims of war rebuild their 
lives. We can all work to bring the perpetrators of atrocities to 
justice. And we can all work to help make the world a better place.
    Senator Coons. We can stop Joseph Kony and the LRA. We just need to 
keep at it and we need to keep working together.
    Senator Inhofe. There are so many people who are joining together 
now that he is literally on the run.
    Senator Kerry. I believe we can stop Joseph Kony if we focus on it 
intently, and we are, in the Foreign Relations Committee, increasingly 
going to up our level of that focus. We're going to provide visibility 
to this issue. We're going to try to push countries and push our own 
Government into recognizing that we have to commit more.
    Senator Isakson. It's only a matter of time.
    Senator Coons. Stopping Kony and the LRA is a mission that has deep 
bipartisan support in the Senate, in the House of Representatives, and 
in Washington. Our challenge now is sustaining that support. That's 
where you come in.
    Senator Kerry. There's no country on the face of the planet that 
allows people as much freedom of choice and as much opportunity to go 
make a difference.
    Senator Coons. Please, stay informed. Be engaged. Help make sure 
that we finish the job, that we find Joseph Kony, that we remove him 
from the battlefield, that we bring him to justice, and that we commit 
to the ongoing work of healing the communities, the young people, the 
families, who have been hurt by the crimes of this terrible man and his 
horrific group.
    And remember, there's so much more we can and should do in Africa 
and around the world to promote American values. We welcome your voice. 
We're listening to your concerns, and we look forward to working 
together.
    [End of video.]

    Senator Coons. That video was in large part motivated by a 
desire to respond to the millions of young people around the 
world who have been engaged by and encouraged to be active on 
this issue by Invisible Children, by Resolve, by the Enough 
Project, and by their joint efforts to publicize this ongoing, 
decades-long scourge in central Africa. It really is, I think, 
a once-in-a-generation moment when we have the attention of 
millions of folks around the world.
    And so I want us to now move to our first panel to hear 
about the status of the hunt for Joseph Kony, the multilateral 
effort against the LRA, America's investments in recovery.
    And I want to thank the two Senators to my left, both for 
your participation in the video and for their long leadership 
on this issue.
    With that, I would like to ask Senator Isakson for his 
opening statement before we go to the first panel.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, I will be very brief because I want 
to hear from the panelists.
    But to Assistant Secretary Yamamoto, Administrator Gast, 
and particularly Amanda Dory, I am delighted that you are here 
today. You gave me a great briefing before I went to Uganda 
early in the month of April, and I am pleased to report, coming 
back from that trip, that our United States forces under DOD 
that are in Uganda and other parts of central Africa assisting 
the various armies and the African Union are doing what our 
troops always do: They are making America proud. And they are 
bringing resources for the use by those armies that would not 
otherwise be available, and the assets they have deployed and 
the intelligence that they are gathering is being very, very 
helpful in terms of the pursuit of Joseph Kony.
    And I want to particularly recognize Jolly who is here 
today and Jacob. Thank you for being here. We are anxious to 
hear your story. I would much rather hear from you than me. So, 
Mr. Chairman, I want to turn it back to you to conduct the 
hearing.
    Senator Coons. Thank you, Senator.
    Senator Inhofe.

               STATEMENT OF HON. JAMES M. INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. I will be very brief. I have another 
hearing across the hall I am going to have to be attending.
    I just returned from the east African community, and as 
Ambassador Yamamoto will tell you, that was my 123rd African 
country visit in 15 years. The most revealing one was back in 
2005. And I really want to mention this because I think it may 
have gone kind of unnoticed.
    My first up to Gulu was in 2005 when we heard there is a 
guy up there named Joseph Kony. When I got up there, there were 
three guys who I really believe we would not be where we are 
today if it had not been for them. They were the Invisible 
Children guys. They had their camera going up there. Jason 
Russell, Loren Pool, and Bobby Bailey. And when they put 
together their first thing and went out and engendered the 
support, I can tell you right now we ended up getting 64 
cosponsors to 1067. I did most of that and could not have done 
it without those kids harassing all the Members of the Senate 
to get them to be interested in this mission.
    So I joined them and I am just glad, hopefully, this will 
be the year. We are going to do all of the resources we can. I 
want to remind people, as I always do, that the amendments that 
we put on the 2012 national defense authorization language was 
one that precludes Americans from engaging in combat. And I 
think that is very important for people to know because we get 
a lot of criticism for getting places like Libya and other 
places where perhaps we should not be, but they need the 
support, they have the support.
    And I will be visiting with President Kabila later this 
afternoon on a plan that he has. You have not just five 
countries, but you have included in that the additional five 
countries of the east African community all working together to 
make this happen.
    Thanks for all your support on this.
    Senator Coons. Thank you, Senator Inhofe.
    I would like to now move to our first panel. Ambassador 
Yamamoto.

 STATEMENT OF HON. DONALD YAMAMOTO, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY OF STATE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Yamamoto. Thank you very much, Mr. Chairman, for 
this great opportunity to speak to you today on our efforts to 
counter the Lord's Resistance Army.
    The LRA is a weakened force, but its humanitarian impact 
remains disproportionate. It continues to terrorize and uproot 
communities across three countries, primarily the Central 
African Republic, the Democratic Republic of the Congo, and 
Southern Sudan.
    And, Senator, let me say that we are all very grateful to 
you, Senator Coons, Senator Isakson, and Senator Inhofe, for 
everything that you have done. It is very humbling to be here 
before you and the work that you have done to inspire us in our 
work here.
    Consistent with the legislation that you all passed in 
2010, we continue to pursue a multifaceted strategy to support 
regional efforts to end the threat posed by the LRA.
    Let me stress that the governments of the region are in the 
lead. Their troops are making the most important sacrifices and 
their people are confronting the LRA's terror. These 
governments are the ones that are ultimately responsible for 
ending this threat and protecting local communities. The United 
States is trying to help them fulfill these responsibilities.
    Mr. Chairman, we continue to look for ways in which we can 
enhance the capacity of these militaries to succeed. Last 
October, President Obama authorized the deployment of a small 
number of U.S. military forces to serve as advisors to the 
regional forces pursuing the LRA. The President announced 
yesterday that the United States will continue this deployment. 
My colleague from the Defense Department will go into more 
detail on this work of the advisors.
    We are coordinating closely with the United Nations 
peacekeeping missions in the region, especially to promote 
civilian protection. We have encouraged the U.N. to scale up 
its efforts when possible.
    We are also working very closely with the African Union to 
increase its efforts to address the LRA. Last month, the AU 
officially launched the Regional Cooperation Initiative for the 
Elimination of the LRA.
    These new initiatives, united together, offer real promise. 
However, as Chairman Kerry wrote earlier this month, ending the 
LRA threat is not an easy mission. The LRA operates in very 
small groups across vast territories, roughly the size of 
California, and very heavily forested.
    Mr. Chairman, effectively ending the LRA threat requires 
simultaneously removing the top leadership from the battlefield 
and addressing the conditions that leave the communities so 
vulnerable to the predatory groups such as the LRA. That is why 
the United States is seeking to pursue a multifaceted, four-
pillar program, and that is to increase protection of 
civilians, the apprehension and removal of Joseph Kony and 
others, the promotion of defections of the LRA and support of 
disarmament, demobilization, and reintegration of remaining LRA 
fighters, and No. 4, the provision of continued humanitarian 
relief to affected areas.
    And in partnership with USAID, the State Department is 
supporting projects to increase civilian protection to enhance 
early warning capabilities and strengthen the overall 
resilience of communities.
    We also believe that the targeted efforts to encourage the 
LRA fighters to peacefully surrender can have a great effect on 
reducing the LRA's number.
    Mr. Chairman, we believe there is an opportunity for 
further U.S. support using the State Department's War Crimes 
Rewards Program. We welcome legislation that would expand the 
authority of this program to that end.
    In closing, let me reiterate that our partners in the 
region are in the lead in countering the LRA threat and its 
impacts, but the United States can provide a critical, capable 
support to these efforts.
    Mr. Chairman, I submit a longer version for the record.
    And I also just want to take this time just to say thank 
you to Ben Keesey and the Invisible Children and to Jacob and 
the others who are here today.
    Thank you.
    [The prepared statement of Ambassador Yamamoto follows:]

            Prepared Statement of Ambassador Donald Yamamoto

    Mr. Chairman, thank you for this opportunity to update the 
committee about our ongoing efforts to help end the threat posed by the 
Lord's Resistance Army (LRA). Over the last several years, the 
governments of the region have made progress dispersing the LRA and 
reducing its numbers. However, despite this progress, the LRA continues 
to abduct, terrorize, and uproot communities across three countries--
the Central African Republic (CAR), the Democratic Republic of the 
Congo (DRC), and South Sudan. The LRA is a weakened force, but its 
humanitarian impact remains disproportionate. The U.N. Office of 
Coordination for Humanitarian Affairs estimated that more than 465,000 
people were displaced or living as refugees during 2011 as a result of 
the LRA threat.
    Mr. Chairman, we believe that the LRA's actions are an affront to 
human dignity and a threat to regional stability. Joseph Kony and the 
LRA's top leaders should be brought to justice.
    We appreciate Congress' strong interest and longstanding concern 
about the LRA, especially the attention given by this committee over 
the years. We view Congress as a critical partner in our ongoing 
efforts. The United States has worked for many years to help address 
the suffering caused by the LRA. Consistent with the legislation passed 
in 2010, we continue to pursue a multifaceted strategy to help the 
governments and people of this region in their efforts to end the 
threat posed by the LRA and address the human consequences of the LRA's 
atrocities.
    Let me stress that the governments of Uganda, CAR, DRC, and South 
Sudan are in the lead. Their troops are making the most important 
sacrifices, and their people are confronting the LRA's terror. These 
governments are the ones that are ultimately responsible for ending 
this threat and protecting local communities. The United States is 
trying to help them fulfill that responsibility. We have a strong 
interest in enhancing the capacity and cooperation of our partners in 
Africa to address threats to peace and security, such as the LRA, and 
to better protect their citizens.
    Continued leadership and cooperation by these governments is 
essential to keep the pressure on the LRA. As we have seen in the past, 
the LRA can exploit any reduction in military or diplomatic pressure to 
regroup and rebuild its forces. Over recent years, the State Department 
has provided support to enable counter-LRA operations by our regional 
partners. Since 2008, we have obligated approximately $50 million in 
logistical support to help the Ugandan military sustain its operations 
and increase its mobility. We continue to provide this support.
    In the DRC, the State Department funded training and equipment for 
a light infantry battalion of the Congolese army that is now operating 
in LRA-affected areas of the DRC. This battalion is engaged in targeted 
military operations against the LRA in coordination with the U.N. 
Organization Stabilization Mission in the DRC (MONUSCO). The State 
Department continues to fund two mentors who are working with this 
battalion. We are also engaging with the militaries of CAR and South 
Sudan as they increase their efforts to counter the LRA and protect 
their populations.
    Mr. Chairman, we continue to look at ways that we can improve our 
security assistance and enhance the capacity of these militaries to 
succeed in their mission. Last October, President Obama authorized the 
deployment of a small number of U.S. military forces to serve as 
advisors to the national military forces pursuing the LRA and seeking 
to protect local populations. The President announced yesterday that 
the United States will continue the deployment. My colleague from the 
Department of Defense will go into more detail on the work of these 
advisors. We believe they are helping the partner forces to enhance 
their cooperation, intelligence-sharing and fusion, and operational 
planning.
    The U.S. military advisors are coordinating closely with the U.N. 
peacekeeping missions in the region, especially to promote civilian 
protection. MONUSCO, in particular, has stepped up its efforts to 
address the LRA in the DRC. MONUSCO conducts targeted military 
operations unilaterally as well as jointly with the Congolese military 
to help protect civilians. We have encouraged the U.N. to scale up its 
efforts, when possible, to help address the LRA threat in CAR and South 
Sudan. The new U.N. Regional Office for Central Africa is overseeing 
the developing of a regional U.N. strategy for addressing the LRA, 
which will be presented to the U.N. Security Council next month. We 
have been working with the U.N. to develop this strategy and look 
forward to helping the U.N. implement it.
    We are also working closely with the African Union as it increases 
its efforts to address the LRA. Last month, the AU officially launched 
its Regional Cooperation Initiative for the Elimination of the LRA. 
Although many operational details are still being worked out, we 
believe the AU's involvement can strengthen coordination, information-
sharing, and trust among the four militaries pursuing the LRA. We also 
believe the AU can help the governments in the region to develop a 
common approach to encouraging LRA defections and ensuring effective 
repatriation and reintegration of those who defect. Our military 
advisors in the field are coordinating with the AU staff as they stand 
up this initiative on the ground, and our embassies are working closely 
with the AU's Special Envoy on the LRA issue, Francisco Madeira.
    These new initiatives, united together, offer real promise. 
However, as Chairman Kerry wrote in The Huffington Post earlier this 
month, we have to level with the American public that ending the LRA 
threat is not an easy mission. The LRA operates in very small groups 
across vast territory roughly the size of California, much of it 
densely forested. Regional forces have had success in tracking down LRA 
groups, but the LRA's leaders are savvy. They exploit communal 
conflicts and attack remote communities, which lack basic road, 
telecommunications, and governance infrastructure. Moreover, the 
governments in this region have limited capabilities and numerous 
security challenges.
    Mr. Chairman, effectively ending the LRA threat requires 
simultaneously removing the top leadership from the battlefield and 
addressing the conditions that leave communities so vulnerable to 
predatory groups such as the LRA. This is precisely why the United 
States is seeking to pursue a multifaceted strategy to enhance both 
military and civilian capacity in the region. In partnership with 
USAID, the State Department is supporting projects to increase civilian 
protection, enhance early warning capabilities, deliver humanitarian 
relief, and strengthen the overall resiliency of communities. We also 
continue to encourage other international donors to increase their 
efforts in these areas. As we have seen in northern Uganda and parts of 
South Sudan, development can play a critical role in pushing out the 
LRA and keeping it from returning.
    We also believe that targeted efforts, in coordination with 
increased military pressure, to encourage LRA fighters to peacefully 
surrender can have a great effect on reducing the LRA's numbers. Since 
2000, more than 12,000 fighters and abductees have left the group and 
been reintegrated and reunited with their families through Uganda's 
Amnesty Commission. The successful rehabilitation and reintegration of 
those who leave the LRA creates a positive feedback cycle that 
encourages others to defect.
    MONUSCO is undertaking critical efforts in the DRC to encourage LRA 
defections, including by setting up assembly points where LRA fighters 
and associated persons can safely surrender. The mission is publicizing 
the locations of these assembly points through targeted radio 
broadcasts and leaflets. We strongly support these efforts and have 
encouraged the U.N. to initiate similar, coordinated activities in CAR 
and South Sudan. We are also looking at ways that we can augment these 
activities through our programs and presence on the ground. The State 
Department has deployed a civilian officer to the region who is working 
with our military advisors and embassies to identify critical gaps and 
opportunities for further U.S. support. We plan to deploy a second 
officer soon.
    Mr. Chairman, we believe there is an opportunity for further U.S. 
support to the counter-LRA effort using the State Department's War 
Crimes Rewards Program. This program allows the Secretary of State to 
publicize and pay rewards for information leading to the arrest and/or 
conviction of targeted war criminals. This program has been very 
effective in bringing fugitives to justice, but the present statutory 
authority is limited to fugitives indicted by the International 
Criminal Tribunals for the Former Yugoslavia and Rwanda and the Special 
Court for Sierra Leone.
    We welcome legislation that would expand the authority for the War 
Crimes Reward Program so it could be used to target foreign nationals 
accused of war crimes, crimes against humanity, or genocide by any 
international criminal tribunal, including hybrid or mixed courts. This 
would shift the program from being court-specific to crime-specific. 
Fugitives would only be added to the program after careful review and 
approval by an interagency committee, and ultimately the Secretary of 
State.
    Under this expanded authority, we could use the program to target 
Joseph Kony and other top LRA commanders. We could publicize rewards 
for information about LRA leaders using leaflets, radio broadcasts, and 
other communications mechanisms. We believe, and our colleagues at the 
Defense Department agree, that this would provide an important tool to 
generate information about the whereabouts of top LRA leaders, 
especially to encourage nonindicted LRA fighters to defect and provide 
such information.
    In closing, let me reiterate that it is our partners in the 
region--governments and civil society organizations--who are in the 
lead in countering the LRA threat and its impacts. But the United 
States can provide critical capabilities and support to help them 
succeed in their efforts. We believe doing so puts us on the right side 
of history, on the right side of our values, and on the right side of 
our strategic interests. We appreciate Congress' strong commitment to 
countering the LRA, and we look forward to working with you in the 
months ahead.

    Senator Coons. Thank you so much, Ambassador Yamamoto.
    Assistant Administrator Gast.

   STATEMENT OF HON. EARL GAST, ASSISTANT ADMINISTRATOR FOR 
AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, 
                               DC

    Mr. Gast. Good morning, Chairman Coons. Good morning, 
Ranking Member Isakson. Thank you for inviting me to speak with 
you today. It is a pleasure to be back here again so soon.
    For over two decades, the Lord's Resistance Army terrorized 
communities across huge swaths of northern Uganda, abducting 
civilians and forcing children to become soldiers. The LRA was 
finally driven out of Uganda in 2006, and since then northern 
Uganda has undergone a transformation that is tangible. People 
can move freely. Banks and stores are open, and fields are 
being cultivated. Poverty declined from 61 percent in 2005 to 
an estimated 46 percent in 2010. And 95 percent of the more 
than 1.8 million Ugandans who were displaced by the conflict 
have returned to their homes.
    Working with the Government of Uganda and civil society 
organizations, the United States has done a tremendous amount 
to solidify this progress by supporting the rebuilding of 
communities and economies.
    Today the LRA's numbers are significantly reduced, but it 
continues to commit atrocities throughout large parts of 
central Africa, the Central African Republic, the Democratic 
Republic of Congo, and the Republic of South Sudan. LRA 
violence has displaced more than 445,000 persons in an area the 
size of California that is harsh, remote, and underdeveloped.
    As the threat has shifted from northern Uganda to the 
Central African Republic and the Congo and South Sudan, USAID 
has adjusted its response to address humanitarian needs and 
increase the protection of civilians in these areas, which is 
at the core of our strategy. Our programs, which aim to assist 
nearly a quarter of a million persons, are having a significant 
impact. Because the LRA preys on vulnerable communities, we are 
supporting coordinated efforts to reduce the vulnerability of 
those communities. In the DRC, USAID has engaged 24 villages to 
form local protection committees that are identifying security 
threats and assessing what they can do to mitigate those 
problems. Once these protection plans are in place, the use of 
high-frequency radios will reinforce and extend an existing 
network of radios managed by the Catholic Church as an early 
warning system.
    USAID also supports the reunification and reintegration of 
formerly abducted children into their families and communities 
and is helping to meet their significant psychosocial needs 
with therapy and life skills training.
    USAID is also helping women purchase sewing machines, 
fabric, and basic accessories. Most of these women are the sole 
providers for their children and they can now earn a living 
through tailoring and producing clothing for clients in and 
around their communities.
    USAID has been heavily engaged in LRA-affected areas of 
Uganda since the late 1980s and our efforts have shown that 
development can flourish once stability and security have taken 
root. As the conflict first began to exact severe economic 
losses, caused mass displacement, and weakened governance in 
northern Uganda, USAID focused on providing lifesaving 
assistance to those affected by the conflict. When the LRA was 
finally driven out of northern Uganda, our programs shifted 
from relief to recovery and then to longer term development 
which is taking place now.
    USAID's Northern Uganda Transition Initiative was a 
critical step in this evolution from relief, humanitarian 
assistance, to development. This flagship program renovated 
public service buildings throughout war-affected regions 
including government office buildings, schools, and teacher 
housing, health clinics, markets, police and justice 
facilities, and at a time of tremendous risk and uncertainty, 
the initiative quickly became a cornerstone of our strategy in 
northern Uganda and was highly valued by our Ugandan partners 
for its speed, for its flexibility, and its impact.
    By partnering directly with government offices, the 
initiative not only helped communities begin to rebuild but 
also increased the visibility of and confidence in all levels 
of government. This effort sent a clear message that peace had 
returned to the region and the Government of Uganda was now at 
the helm of the reconstruction process.
    In northern Uganda, USAID's strategy is now woven into the 
Government of Uganda's Peace, Recovery and Development Plan 
which has ushered in the return of stability to the region. And 
we are working closely with the Departments of State and 
Defense, as well as other donors and regional governments and 
civil society organizations that are on the ground, to make 
this a truly concerted push to help communities cope, recover, 
and rebuild.
    Thank you for inviting me to speak with you today, and I 
welcome any questions. Thank you.
    [The prepared statement of Mr. Gast follows:]

 Prepared Statement of Assistant Administrator for Africa Earl W. Gast

    Good morning, Chairman Coons, Ranking Member Isakson, and members 
of the subcommittee. Thank you for inviting me to speak with you today.
    For over two decades, the Lord's Resistance Army (LRA) terrorized 
communities across huge swaths of northern Uganda, abducting civilians 
and forcing children to become soldiers. The LRA was finally driven out 
of Uganda in 2006, and since then, northern Uganda has undergone a 
transformation that is tangible. People can move freely, banks and 
stores are open, and fields are being cultivated. Poverty declined from 
60.7 percent in 2005 to 46.2 percent in 2010, and the U.N. High 
Commissioner for Refugees estimates that 95 percent of the 1.8 million 
Ugandans displaced by the conflict have returned to their homes.
    Today the LRA's numbers are significantly reduced, but it continues 
to commit atrocities throughout large parts of central Africa--the 
Central African Republic (CAR), the Democratic Republic of Congo (DRC), 
and the Republic of South Sudan. It is an area the size of California, 
and it is harsh, remote, and underdeveloped. Reported LRA attacks and 
abductions have increased in the first quarter of 2012--particularly in 
the DRC--and the LRA's violence has now displaced more than 445,000 
people.
    As the threat of the LRA shifted from northern Uganda to CAR, the 
DRC, and South Sudan, USAID accordingly adjusted its response to 
address humanitarian needs and supplement ongoing efforts by regional 
governments and the United Nations to increase the protection of 
civilians in these areas. In LRA-affected populations in CAR, the DRC, 
and South Sudan, the United States life-saving humanitarian assistance, 
health services, food aid, civilian protection, and economic recovery 
totaled more than $18 million in FY 2011.
    USAID remains committed to promoting stability and economic 
development in northern Uganda while also addressing the immediate 
needs of communities in LRA-affected parts of CAR, the DRC, and South 
Sudan--though insecurity presents a significant challenge to providing 
humanitarian assistance and promoting development in these areas.
    USAID aims to provide at least 240,000 people with humanitarian 
assistance in LRA-affected parts of CAR, the DRC, and South Sudan, and 
these programs are having a significant impact on women and children. 
USAID is addressing the psychosocial needs of children who have either 
been abducted or displaced by the LRA by supporting the participation 
of nearly 1,000 children in play therapy and life-skills training. In 
CAR, DRC, and South Sudan, USAID supports protection for LRA-affected 
children through reunification and reintegration of separated and 
formerly abducted children into their families and communities. In CAR, 
one of our grantees supports protection activities for LRA-affected 
individuals, including gender-based violence sensitization and 
psychosocial support for displaced and formerly abducted children. In 
the Haut Uele District of the DRC, USAID is providing assistance to the 
Kpezu Women's Tailors Association to purchase sewing machines, fabric, 
and basic accessories. Made up primarily of women who are the sole 
providers for themselves and their children, the women of the 
association can now earn a living through tailoring and producing 
clothing for clients in and around the community. Kpezu's activities 
also include training young women who have not had the opportunity to 
attend school in sewing and basic literacy.
    The protection of civilians continues to be central to the overall 
U.S. Government strategy to help counter the LRA. Because the LRA preys 
on vulnerable communities, we are supporting the efforts of regional 
governments and nongovernmental organizations to reduce the 
vulnerability of those communities.
    In LRA-affected areas of the DRC, the United States is 
incorporating high-frequency radios into community-based protection 
programs to provide early warnings to conflict and violence. Although 
implementation of this work has been delayed by severe logistical 
challenges, including undependable air service, negligible road and 
communication infrastructure, and acute insecurity, the project is 
progressing. USAID has engaged 24 communities based on their level of 
insecurity, willingness to take part in the project, and gaps in 
coverage with other similar programs. All 24 communities have formed 
local protection committees that are identifying security threats and 
assessing what actions they can take to mitigate the threats. Each 
committee consists of around 15 members, including an average of four 
to six women and representation from displaced populations and youth. 
USAID is assisting them in developing protection plans tailored to 
specific needs of their communities and will provide some funding to 
support priority activities within the plans. For example, a committee 
in Yassa formed in February 2012 reported that the police had been 
abusive toward the population, stealing from and harassing them. Since 
the committee began to work to improve relations between community 
members, the police, and the DRC Armed Forces, the police have 
significantly improved their behavior and are now working closely with 
the community to address their concerns. Once these community 
protection plans are in place, the use of high-frequency radios will 
reinforce and extend the existing network of radios managed by the 
Catholic Church as an early warning network.
    Additionally, USAID is piloting an innovative cell phone tower 
project that aims to diversify the communications options available for 
use in early warning systems and humanitarian efforts. USAID funding 
partially supports the construction of four low-cost base transmission 
stations in strategic towns in Haut and Bas Uele. Each of the four 
towers will provide at least 20 square kilometers of cell phone 
connectivity to 1,200 mobile phone users living in areas previously 
lacking coverage. Although the DRC's main mobile network operators have 
the potential to expand their operations, their unfamiliarity with the 
technology has precluded any investment. Despite these challenges, 
Vodacom accepted the challenge and expects the towers to be operational 
by fall 2012.
    The benefits will be well worth the investment. Vodacom recently 
sent a team to Ango to begin to educate the community about the 
project; the residents were excited and believe it will significantly 
reduce their isolation. Additionally, this project will be a model for 
how to introduce low-cost cell phone coverage to remote areas located 
outside of cellular networks. Mobile companies do not typically invest 
in remote areas because of the difficulty in earning a profit. In this 
project the low-cost, light-weight AltoPod ``stations'' replace large, 
costly towers and are easier to transport into areas which are 
logistically difficult to access. In terms of long-term development 
impact and innovation, this pilot project could catalyze additional 
private-sector investment in rural areas by demonstrating the technical 
and economic viability to mobile network operators.
    USAID has been heavily engaged in LRA-affected areas of Uganda 
since the late 1980s, and our intervention evolved over the years to 
reflect changing needs and priorities. With the LRA's departure, we 
have had significant success in helping affected communities in Uganda 
make the transition from conflict to relief to recovery to development.
    As the conflict in northern Uganda first began to exact severe 
economic losses, cause mass displacement, and weaken governance and 
social structures in Uganda, USAID focused on providing humanitarian 
assistance to those affected by the conflict. Between 1997 and 2009, 
USAID provided more than $436 million in humanitarian assistance to 
Uganda, including $370 million in food aid. Food, health services, camp 
management, and other aid provided by the American people saved lives 
and helped communities survive the worst of the conflict.
    In 2006, when the LRA was finally driven from northern Uganda, we 
shifted our programs from relief to recovery. We helped internally 
displaced persons return to their homes and reestablish their 
livelihoods. Investments in seed distribution programs improved food 
security, the rehabilitation of water points reduced health risk, and 
road repairs opened up access to markets, supporting local economies. 
As a result of these investments, in 2009, we were able to shift our 
programs in northern Uganda to focus on long-term development.
    USAID's Northern Uganda Transition Initiative was a critical step 
in this evolution. This 2008-11, $23-million flagship program renovated 
public service buildings throughout war-affected regions, including 
government office buildings, schools and teacher houses, health clinics 
and health clinic housing, markets, boreholes, and police and justice 
facilities.
    In Agago district, physical additions to congested court and police 
buildings strengthened the rule of law by allowing courts to process 
more cases. As a result of USAID's infrastructure support, in 2011, the 
Kiryandongo court received 10-15 cases a day, as opposed to one or two 
cases before the court construction. Officials used to send cases to 
Masindi--over 70 kilometers away--and the complainant was forced to pay 
for the travel of the accused, police officers, and witnesses. The cost 
forced many people to opt to settle cases, but now that the facility 
has facilitated speedy trials, more cases are being reports, and 
witnesses even come willingly.
    In addition, USAID worked with media, especially radio stations, to 
communicate correct and timely information on issues such as public 
services and land rights to returnees in northern Uganda and to support 
traditional and cultural reconciliation processes, which helped 
communities heal from the wounds of war. Radio messages on amnesty 
helped the return of former combatants and the disarming of civilians; 
in fact, in Kitgum and Pader districts, guns were found surrendered 
after these messages had aired.
    At a time of tremendous risk and uncertainty, the initiative 
quickly became a cornerstone of USAID's strategy in northern Uganda and 
was highly valued by Ugandan partners for its speed, flexibility, and 
impact. By partnering directly with government departments and offices, 
the initiative not only helped communities begin to rebuild, but also 
increased the visibility of, and confidence in, all levels of 
government. At the same time, local officials appreciated how the new 
infrastructure, especially markets, increased their revenue, making 
them less dependent on allocations from the district government and 
giving them more flexibility in development planning. This effort sent 
a clear message that peace had returned to the region and the 
Government of Uganda was now at the helm of the reconstruction process.
    In northern Uganda, USAID's strategy is now woven into the 
Government of Uganda's Peace, Recovery, and Development Plan, which has 
ushered in the return of stability to the region. USAID has helped 
nurture this progress by providing medical care and counseling to 
abductees, promoting reconstruction, supporting transitional justice 
and reconciliation, increasing opportunities for ex-combatants, and 
addressing key issues such as HIV/AIDS, malaria, water, and sanitation. 
In addition, USAID is helping northern Uganda to redevelop its farms; 
in 2010, agricultural training and projects helped increase the 
region's crop sales by more than $7 million. USAID's unique Northern 
Uganda Development of Enhanced Local Governance, Infrastructure, and 
Livelihoods program enables local governments to expand basic services 
to areas with ex-combatants, abductees, and returnees, while at the 
same time infusing capital into the recovering economy by using labor-
intensive methods of construction. In FY 2011, this program supported 
the construction of 70 boreholes, six schools with latrines and teacher 
housing, and contracts for 19 farm-to-market roads in four districts.
    Our efforts in northern Uganda demonstrate that development can 
flourish once security has been assured. However, the north remains the 
poorest region in the country. Underlying grievances over land rights, 
the discovery of oil, poor political processes, and ethnic divisions 
have the potential to slow development and raise tensions. Recognizing 
these challenges, USAID continues to take a conflict-sensitive 
approach. We continue to dedicate resources to address some of the 
remaining drivers of conflict and to build local government capacity to 
deliver services. USAID's new Supporting Access to Justice, Fostering 
Equity and Peace program will continue our efforts while also 
proactively addressing emerging development issues and sources of 
tension, such as land disputes. Our field office in Gulu, northern 
Uganda, not only remains open, but is expanding its staff numbers.
    The United States is committed to continuing its long-term support 
to the people of central Africa in their efforts to respond to the 
threats of the LRA. Although we have made progress in addressing 
humanitarian assistance needs and increasing the protection of 
civilians in LRA-affected areas, critical gaps remain in CAR and parts 
of the DRC and South Sudan. USAID and the State Department are working 
together to determine how best to utilize the $5 million in 2012 
Economic Support Funds to address gaps in the region. We have 
determined that programming will focus on the LRA-affected areas of 
CAR, where the greatest gaps remain, although some funds may be 
programmed in the DRC and South Sudan. USAID's efforts in LRA-affected 
areas in the region and northern Uganda are closely coordinated with 
the Departments of State and Defense, as well as other donors, such as 
the European Union and the United Kingdom, regional governments, and 
civil society on the ground, to make this a truly concerted push to 
help communities finally begin to rebuild and recover.
    Thank you for inviting me to speak with you today on this critical 
issue, and I welcome any questions you might have.

    Senator Coons. Thank you.
    Ms. Dory.

    STATEMENT OF AMANDA DORY, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE, AFRICAN AFFAIRS, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Dory. Thank you and good morning, Mr. Chairman and 
Ranking Member. I appreciate this opportunity to update the 
subcommittee on the Department of Defense's role in countering 
the Lord's Resistance Army. I particularly appreciate the 
chance to appear before this committee in my first hearing in 
my new capacity as Deputy Assistant Secretary for African 
Affairs.
    Consistent with the legislation passed by Congress in 2010 
and signed into law by the President, the United States 
continues, as you know, to pursue a comprehensive, multiyear 
strategy to help our regional partners mitigate and eliminate 
the threat posed by the Lord's Resistance Army.
    DOD's contribution to this multinational effort is 
consistent with the new Defense Strategic Guidance, which 
states, whenever possible, we will develop innovative, low-
cost, and small-footprint approaches to achieve our security 
objectives on the African Continent, relying on exercises, 
rotational presence, and advisory capabilities. In this 
operation, U.S. forces are combat-equipped for self-defense 
purposes but do not have an operational role. U.S. advisors are 
supporting the regional forces in an advisory capacity and 
seeking to enhance our partners' capabilities to achieve their 
objectives against the LRA.
    The militaries of Uganda, the Central African Republic, 
South Sudan, and the Democratic Republic of the Congo, in 
collaboration with the African Union, continue to pursue the 
LRA and seek to protect local populations. They are leading 
this effort.
    As you know, approximately 100 U.S. military personnel are 
deployed for Operation Observant Compass across the four LRA-
affected countries. There is a command and control element in 
Uganda that is working to synchronize and oversee DOD's 
counter-LRA efforts and to coordinate at the headquarters level 
with Ugandan forces.
    Small teams of U.S. military advisors are also now working 
with Ugandan military and national military forces in field 
locations in LRA-affected areas of the Central African Republic 
and South Sudan. In these two countries, U.S. advisors have 
helped to set up Operations Fusion Centers to enable daily 
coordination, information-sharing, and tactical coordination. 
The U.S. advisors are also integrating local civilian leaders 
into the work of the partner forces to improve the 
effectiveness of the civil-military relations.
    In the Democratic Republic of the Congo, United States 
advisors are supporting efforts by MONUSCO, the United Nations 
Organization Stabilization Mission, in the DRC, as well as the 
Congolese military, to increase the protection of civilians and 
address the LRA. Our advisors there are working with MONUSCO's 
Joint Intelligence Operations Center which serves as the 
intelligence fusion hub for these efforts in the DRC. United 
States advisors are connecting the work of the JIOC and that of 
the Operations Fusion Centers in the Central African Republic 
and South Sudan to increase cross-border analysis and regional 
coordination on LRA movements.
    We believe our support is helping the partner forces to 
improve their operations, but they continue to face significant 
challenges in terms of their capabilities to quickly pursue LRA 
groups across this vast area.
    DOD appreciates the support provided by the authority in 
section 1206 of the National Defense Authorization Act for 
fiscal year 2012, which allows the expenditure of $35 million 
to provide enhanced logistical support, supplies, and services 
to our regional partners. DOD intends to use this authority to 
provide enhanced mobility support to the regional forces, as 
well as supplies to upgrade the Operations Fusion Centers.
    I will close for now by saying that we believe the U.S. 
military advisors have established a good foundation and made 
initial progress, especially considering the complexity of the 
operating environment, the number of partners involved, and the 
remoteness of the operational areas. We will continue to 
monitor the situation closely with our interagency partners to 
ensure our support is having the intended impact.
    DOD appreciates Congress' strong commitment to countering 
the LRA and your support for the efforts of our deployed 
personnel. And we look forward to working with you in the 
months ahead.
    Thank you.
    [The prepared statement of Ms. Dory follows:]

    Prepared Statement of Deputy Assistant Secretary Amanda J. Dory

    Mr. Chairman, thank you for this opportunity to update the 
subcommittee on the Department of Defense's (DOD) role in implementing 
the U.S. strategy to help our regional partners counter the Lord's 
Resistance Army (LRA). Consistent with the legislation passed by 
Congress in 2010 and signed into law by the President, the United 
States continues to pursue a comprehensive, multiyear strategy to help 
our regional partners mitigate and eliminate the threat posed by the 
LRA.
    The U.S. strategy outlines four pillars for our continuing support: 
increasing the protection of civilians; apprehending or removing Joseph 
Kony and senior commanders from the battlefield; promoting the 
defection, disarmament, demobilization, and reintegration of remaining 
LRA fighters; and increasing humanitarian access and providing 
continued relief to affected communities.
    The militaries of Uganda, the Central African Republic, the 
Democratic Republic of the Congo, and South Sudan, in collaboration 
with the African Union, continue to pursue the LRA and seek to protect 
local populations. They are leading this effort. They have made 
progress, but there are significant challenges to pursuing LRA groups 
across this vast, densely forested region. To enhance their efforts, 
the President authorized a small number of U.S. forces to deploy to the 
LRA-affected region to serve as advisors to the forces pursuing the LRA 
and seeking to protect local populations. U.S. forces began this 
deployment in October 2011 and small teams of advisors moved to forward 
operating locations in LRA-affected areas at the end of 2011 and early 
2012.
    DOD's contribution to this multinational effort is in line with the 
new Defense Strategic Guidance, which states, ``Whenever possible, we 
will develop innovative, low-cost, and small-footprint approaches to 
achieve our security objectives on the continent, relying on exercises, 
rotational presence, and advisory capabilities.'' In this operation, 
U.S. forces are combat-equipped for self-defense purposes, but do not 
have an operational role. U.S. advisors are supporting the regional 
forces in an advisory capacity and seeking to enhance our partners' 
capabilities to achieve their objectives and accomplish their mission 
against the LRA.
    Approximately 100 U.S. military personnel are deployed for this 
operation across the four LRA-affected countries. There is a command-
and-control element in Uganda that is working to synchronize and 
oversee DOD's counter-LRA efforts and to coordinate at the headquarters 
level with the Ugandan forces.
    Small teams of U.S. military advisors are also now working with the 
Ugandan military and national military forces in field locations in 
LRA-affected areas of Central African Republic and South Sudan. In 
these two countries, U.S. advisors have helped to set up Operations 
Fusion Centers to enable daily coordination, information-sharing, and 
tactical coordination. The U.S. advisors are also integrating local 
civilian leaders into the work of the partner forces, to improve the 
effectiveness of civil-military relations.
    In the Democratic Republic of the Congo, U.S. advisors are 
supporting efforts by the United Nations Organization Stabilization 
Mission in the DRC (MONUSCO) and the Congolese military (FARDC) to 
increase the protection of civilians and address the LRA. The advisors 
are working at MONUSCO's Joint Intelligence Operations Center (JIOC), 
which serves as the intelligence fusion hub for these efforts in the 
DRC. U.S. advisors are connecting the work of the JIOC and that of the 
Operations Fusion Centers in CAR and South Sudan to increase cross-
border analysis and regional coordination on LRA movements.
    Over the last few months, the main body of U.S. advisors began the 
actual work of advising and supporting partner operations. In the DRC, 
U.S. advisors are helping MONUSCO and the FARDC to develop their 
operations in LRA-affected areas. For example, U.S. advisors assisted 
with the planning for a joint FARDC-MONUSCO operation in December 2011 
to help deter the LRA from committing large-scale attacks during the 
Christmas season, as they have done in the past. In CAR and South 
Sudan, U.S. advisors are providing planning, training, and intelligence 
support for the ongoing efforts to track and intercept LRA groups.
    We believe our support is helping the partner forces to better 
locate LRA groups and improve their operations. But, the partner forces 
continue to face significant challenges in terms of their capabilities 
to quickly pursue LRA groups across this vast area approximately the 
size of California. DOD appreciates the support provided by the 
authority in Section 1206 of the National Defense Authorization Act for 
FY 2012, which allows the expenditure of $35 million to provide 
enhanced logistical support, supplies, and services to the regional 
partner forces. DOD intends to use this authority to provide enhanced 
mobility support to the regional forces and supplies to upgrade the 
Operations Fusion Centers.
    U.S. forces have also been helping our regional partners to 
increase their engagement with local civic leaders and nongovernmental 
organizations (NGOs) to increase the flow of information and 
effectiveness of operations. U.S. forces are also working with partner 
militaries to integrate civilian protection into operational planning. 
The State Department has deployed a civilian field officer who is 
working with U.S. military advisors in this regard.
    In coordination with our embassies in the region, U.S. military 
advisors are coordinating closely with the U.N. in their efforts to 
promote the defection, disarmament, demobilization, repatriation, 
resettlement and reintegration of former LRA fighters and associated 
persons. For example, U.S. military advisors have recently helped to 
transport MONUSCO leaflets encouraging LRA defections for distribution 
in the CAR. In addition, the U.S. Africa Command (USAFRICOM) has 
developed plans for how they can reinforce existing information 
operations by the U.N. and nongovernmental actors to encourage LRA 
defections.
    USAFRICOM also plans to utilize its existing rewards program and 
fund small-scale efforts to increase information-gathering efforts 
throughout LRA-affected areas. We believe that the use of the State 
Department's War Crimes Rewards Program to target Joseph Kony and top 
LRA commanders would significantly enhance and complement this effort. 
We support legislation that would expand the authority for this program 
for these purposes. This program would provide an additional tool to 
help generate information about the location of LRA leaders, and 
encourage more LRA fighters to defect.
    I will close by saying that we believe the U.S. military advisors 
have established a good foundation and made initial progress, 
especially considering the complexity of the operating environment, the 
number of partners involved, and the remoteness of the operational 
areas. As the President said on April 23, upon ordering the deployment 
last year, he directed his National Security Council to review our 
progress after 150 days. Having completed this review, the President 
announced that our advisors will continue their efforts to support the 
regional forces. However, we want to continue to stress that this is 
just one component of the overall U.S. strategy and that our regional 
partners are the ones in the driver's seat. This is not an open-ended 
deployment and we will continue to regularly assess their commitment to 
this mission and whether we are making sufficient progress collectively 
to justify the continued deployment of U.S. advisors. DOD appreciates 
Congress's strong commitment to countering the LRA and your support for 
the efforts of our deployed personnel, and we look forward to working 
with you in the months ahead.

    Senator Coons. Thank you so much, Deputy Assistant 
Secretary Dory, for your testimony and for appearing before us 
today.
    Let me, if I could, start a first round of 7 minutes with 
you, if I could, because I am very interested in this sort of 
particular set of questions.
    What is the level of cooperation at this point between the 
four regional governments in terms of sharing information, 
intelligence coordination now that these fusion centers are set 
up, now that the 100 U.S. advisors are sort of facilitating 
communication? Where are they in terms of collaboration? And 
what are the main practical and operational challenges 
associated with the U.S. mission that we might be aware of and 
might be engaged in supporting either additional logistical 
support or intelligence assets that might be needed to 
strengthen AFRICOM's role and to strengthen cooperation and 
effectiveness with our regional partners?
    Ms. Dory. Thank you. On the collaboration question, I can 
speak at the tactical operational level, and I know the State 
Department will want to add from the diplomatic and strategic 
level.
    I would say the level of collaboration is growing. The 
advisors that have gone into these operations centers engaging 
with partner forces arrived, for the most part, in the December 
and January timeframe, and the first period of time has been 
involved in establishing their operations and developing the 
relationships, building rapport and trust with each of the 
partner militaries. As we all know, you cannot surge trust. 
That is something that happens with time, and I think they have 
made tremendous progress in this initial period of time.
    I think at the tactical level, the level of communication 
and cooperation is quite close. We see that in terms of the 
closing between the provision of information and intelligence 
and then the connection with the operations that are undertaken 
by the partner militaries. So I think we have increasing 
numbers of tangible incidents to point to where there have been 
LRA engaged directly, where there have been abductees who have 
been released as a result of the collaboration and the 
cooperation at the tactical operational level.
    In terms of the challenges, I highlighted a couple already 
and, as you know, the terrain itself is perhaps challenge No. 
1. Challenge No. 2 is perhaps our collective expectations 
management on how quickly we will be able to succeed, given the 
terrain, given the multiplicity of the partner forces, and 
given the challenges associated with gathering actionable 
information during this operation.
    I think in terms of some--specific to Operation Observant 
Compass, logistics and ISR are challenge areas for us. There 
are logistics support being provided at the present time thanks 
to the State Department's peacekeeping operations funding 
support. That is something that DOD will be taking over via our 
1206 counter-LRA authority, and we intend to increase the 
amount of the logistics support provided to the partner forces 
themselves.
    When it comes to ISR, as you are well aware, there is not 
enough ISR to go around for any of our combatant commanders. 
They are constantly making difficult choices within their areas 
of responsibility. AFRICOM has dedicated assets to the LRA 
mission and is looking at other ways to increase the amount of 
ISR coverage that could be provided going forward.
    Senator Coons. Thank you very much.
    If I could, just a follow-on question, and then I would 
like to go to Ambassador Yamamoto for the same question.
    But what are benchmarks for success that will determine the 
duration of this deployment? You mentioned expectation 
management as one of the major challenges, right up there with 
terrain. What is the timeline? What could you suggest in terms 
of benchmarks that would determine when you would think it was 
appropriate for the DOD role to wind down?
    Ms. Dory. I think in terms of benchmarks of success, when 
we look across the four pillars of the counter-LRA strategy, 
there are quite a few benchmarks to look at. Some of those 
relate to the total number of defections over time. Some of 
them relate to the number of LRA successfully engaged. Some of 
them relate--these are specific in the DOD realm--to the 
capacity-building of the partner forces and their ability to 
increase the effectiveness of their information and 
intelligence gathering operations and then to translate that 
into operational activities on the ground. Those are some 
specific ones to the DOD lane.
    I think there are also metrics or benchmarks when you look 
at the level of overall development in the areas in terms of 
the access for humanitarian assistance and the ability to 
engage in development activities over time along the lines of 
what we have heard from USAID.
    Senator Coons. Thank you so much.
    Ambassador Yamamoto, if you would just speak to the same 
basic question, what sort of progress we are making in terms of 
getting the regional partners we have to collaborate, to 
coordinate. To what extent is some ongoing hesitancy or 
distance between the DRC and Uganda contributing to operational 
challenges in the field? And then to what extent is 
collaboration and coordination in the development and recovery 
mission also critical to our long-term success?
    Ambassador Yamamoto. And thank you very much, Senator.
    One of the main issues is that the four governments are 
committed. So that is really kind of the first step in trying 
to get them together. You are obviously correct. Trying to get 
all these countries to coordinate and cooperate and to have an 
integrated military force that can coordinate and cooperate is 
going to be tough. We are talking to Defense Minister Mbabazi 
last week from the Central African Republic. In his troops, 
they need equipment. They need training. They need a lot of 
logistical support. But then in comparison to the Ugandan UPDF, 
they have a much more advanced operation. And so how to 
integrate these are going to be a challenge, but we are trying 
to overcome those. I think the special forces group has been 
very good about enhancing coordination and cooperation.
    The other issue, too, is--of course, you are actually 
correct. The Ugandan troops have not been in the DRC since the 
elections last year. That is going to take some time. But they 
are committed. We have spoken to President Kabila and Museveni 
and they are going work together to make this happen.
    But one thing that is really important is that as long as 
we remain committed--the United States, the European Union, the 
United Nations, and the African Union--that is going to be 
important. And I think the AU especially setting up a regional 
task force in Yambio, South Sudan is one step. The United 
Nations peacekeeping operations contributing--that is another 
step. And right now is, we are building that trust, and I think 
that trust will continue to expand.
    One thing, just going back to what Amanda Dory was saying 
on the benchmarks, is if we can engage the enhanced 
capabilities, coordination, and cooperation, that is one level 
of success and benchmark.
    Senator Coons. Thank you so much, Ambassador.
    I am going to turn to Senator Isakson. Then we can resume.
    Senator Isakson. Well, first of all, Administrator Gast, I 
want to describe what I saw in the Gulu area of northern Uganda 
because your organization and the NGO's you are contracting 
with have made a remarkable turn in coordination with the 
Ugandan Government. We flew into Gulu by a local puddle 
jumper--I guess is the best way to put it--but we got there 
from Kampala. But one of the things we saw along the way, 
Museveni and the government, since Kony has been out of 
northern Uganda, which is about 5 to 6 years, have built a 
better road access between Kampala and Gulu where access is now 
somewhere between 7 and 8 hours, whereas it used to be 
nonexistent before, which has kind of connected the north to 
the capital city.
    And in the Gulu area, USAID, through its contractor CARE, 
is doing some remarkable village improvements in terms of their 
savings and loan concept and other things having to do with 
microfinance, if you will, at the villages and bring about 
economic recovery. And the Pathfinder Group that is in that 
area is doing the same thing. And then CDC is doing a great job 
in terms of PEPFAR and the AIDS problem that is in Uganda.
    But I have to say if you talk about the horror of Joseph 
Kony in northern Uganda 5 to 6 years ago and the savagery and 
the destruction and the terrible things that were going on, a 
lot of credit has to be given to the renaissance that has now 
taken place in the Gulu area in northern Africa, and a lot of 
that credit goes to USAID.
    You might want to comment on some of those contractors.
    Mr. Gast. Thank you, Senator, and thank you for your 
praise. I look forward actually to going to Gulu. I have heard 
about the tremendous impact that we collectively, the U.S. 
Government, have made in partnership with NGO's, international 
NGO's, local NGO's, and certainly the Government of Uganda.
    USAID programmed more than $100 million last year into 
northern Uganda, and that was about 50 percent of the United 
States resources that went into northern Uganda last year. And 
it is all coordinated under the Ugandan Government's peace and 
reconstruction development program, and AID is a major 
contributor. Other donors and the government itself are as 
well.
    Before I get into commenting on some of the specific 
programs of our implementing partners, I do want to say that 
this is one area where we are being forward-leaning, 
recognizing that there is some good capacity within some of the 
local governments there. And so when Administrator Shah was 
before you and discussed some of the USAID Forward reforms, 
this is one area where we are actually piloting the reforms. 
And so we are programming resources directly through the local 
government so that the local governments can build 
infrastructure projects to support the community, and at the 
same time, we have an independent verifier, one of the NGO's, 
Winrock, provides that oversight to make sure that there is 
strict accountability of the money that USAID is providing. So 
I just wanted to highlight that as one success on the reforms 
of AID.
    In addition to working directly with the local governments, 
we are also working with a wide range of partners, some 20 
NGO's, to include CARE which is doing microfinance. We have had 
a tremendous impact in economic growth, as well as in 
agricultural growth. So, for example, just the interventions 
and loans that we have made in the agricultural sector last 
year resulted in an increase in 7 million dollars' worth of 
agricultural products last year.
    Senator Isakson. Well, you are causing a lot of economic 
improvements to take place in the lives of those people which 
really helps for the political stability in the area.
    Ms. Dory, I want to comment on ISR for a minute. 
Intelligence, reconnaissance, and surveillance is critically 
important, as we have learned in many battlefields. That is 
being enhanced now a little bit and I understand will be 
enhanced a little bit more. And that is the real key the United 
States, I think, can give to the AU and the U.N. and the other 
forces that are there.
    But it should be underscored for everybody that has an 
interest in this where he is believed to be is a very heavily 
vegetated, very underdeveloped part of the world where even 
surveillance sometimes is very, very difficult because of the 
canopy that literally covers the Central African Republic and 
South Sudan and that area. I am very proud of what I saw and 
what our 100 advisors, plus or minus, are doing there and the 
cooperation and the aid they are giving to the Ugandan people 
themselves.
    One example--by the way, you talked about the reward 
program. But they are also doing a great flyer drop program 
like we used in a lot of battles all the way back to World War 
I and World War II, but they are dropping leaflets offering 
amnesty and recovery to abductees of Joseph Kony who will come 
back. And that is starting to bear fruit, which is one of the 
great programs. And I want to commend the advisors for doing 
that. We saw firsthand some of the flyers and some of the 
inducements to really provide these people with the confidence 
to leave where they are in terms of in support of Kony and come 
back and bring us the information necessary.
    And I also want to say one other thing. I appreciate the 
President extending the stay of those advisors in Uganda. 
Joseph Kony can be within our reach sooner than we might have 
thought in the past, and in large measure, it is because of 
blending the ISR with the capabilities of the African 
countries.
    So any comments you want to add to that and the reward 
program I would appreciate.
    Ms. Dory. Thank you, Senator.
    Your comments about the ISR and some of the challenges 
there really underscore the need for all forms of information 
and intelligence to be fused together and I think underscore 
further the importance of the engagements with the local 
populations, the engagements with the defectors and the kinds 
of information that comes as a result of the defections. So the 
defectors are a key part of the information picture that helps 
the partner forces vector on the whereabouts of the LRA 
leadership. So very complementary to the use of assets, ISR-
type assets, is the human picture, so to speak, derived from 
information and intelligence. And to that end, the rewards 
program--the proposal to expand the State Department's version 
of the rewards program is well supported by the Department, by 
General Ham and AFRICOM, as a way of inducing additional 
defectors who in the end help tighten the net in terms of the 
whereabouts of Joseph Kony.
    Senator Isakson. Just a comment. I think DOD is very 
supportive of the resolution of Senator Kerry and Coons, 
myself, and others to expand the information leading to the 
capture and conviction of the Kony rewards program, which has 
been very helpful as I understand. And your fellows who were 
deployed over there made it known to me how much they would 
appreciate that opportunity. So I hope we can do that soon, Mr. 
Chairman.
    Senator Coons. Thank you, Senator Isakson.
    That is, I think, our next step here legislatively, not 
just to pass a resolution continuing to express support for the 
mission and for the undertakings, express gratitude to the 
regional armies, but also Senator Kerry's legislation that will 
authorize the justice rewards program to also include Joseph 
Kony and his coindictees at the ICC.
    I would be interested in a series of answers, if I could. 
Ambassador Yamamoto, the one country we have not talked about 
is Sudan. Sudan played a role in arming the LRA and in 
providing them some support years ago. There have been some 
reports that suggest Kony might be trying to seek some kind of 
safe haven in Sudan.
    What is the status of our diplomatic efforts to pressure 
Khartoum to prevent any efforts by Kony to seek sanctuary in 
Sudan?
    Ambassador Yamamoto. I think now the situation, of course, 
in Sudan is very fluid because of the situation in Heglig and 
the other areas.
    We have been following very closely the reports and 
allegations that the Khartoum government is supporting the LRA 
for some time. We have not seen the evidence. We are looking, 
but every information that we receive we are following and if 
we do find verifiable evidence, we are going to act on it 
immediately.
    Senator Coons. And in your view, what would the 
consequences be for the International Criminal Court and for 
its stature going forward were Kony to be captured, taken to 
The Hague, and tried as opposed to removed from the battlefield 
in a way that prevented his being brought to justice?
    Ambassador Yamamoto. I think the legislation by Senator 
Kerry and by you, sir, has been extremely helpful as far as the 
Rewards for Justice program because it does limit and isolate 
Kony, not only Kony but also the other senior officials. And we 
are supportive and receptive to how they are going to handle 
Kony. I know that the Ugandans are very much involved in trying 
to determine the ICC and other programs for Kony. But getting 
him off the battlefield is No. 1.
    Senator Coons. I would be interested in an answer from the 
whole panel, if I could, in series to the next set of concerns 
I have. If you could give me some more detail about the AU, the 
African Union's role, how you see their engagement, how 
sustained it will be, what sort of collaborative role they are 
going to play, and that is both intergovernmental and then in 
terms of recovery and development and then, most centrally, in 
terms of the actual deployment. Is this simply rebranding 
troops who are already in the field with a different command 
structure? Will there be some additional troops sent to the 
field? What kinds of capabilities and origin do they have? 
First.
    Second, civilian protection I think is a very important 
part of the long-term strategy. I would be interested 
particularly, Assistant Administrator Gast, in some comment 
about what you have been doing around civilian protection.
    And then last, how can folks who might be watching this 
hearing who are interested--how they can be supportive? How can 
they be engaged? What difference can they make in America's 
effort at supporting our regional allies?
    If you would first, Ambassador.
    Ambassador Yamamoto. We commend the African Union's efforts 
because their involvement is going to be very important not 
only in coordination and cooperation of these four countries, 
but also in bringing the entire African Union to bear on this 
issue. As you know, the African Union selected recently the 
Mozambique diplomat, Madeira, as the Special Envoy to the LRA. 
And also in that context, they have also established 
operations, a task force in Southern Sudan.
    But what is going to be important, of course, is bringing 
the other groups together, the European Union, and funding and 
help in assisting, also the African Union to help coordinate 
much more. And as you were saying, is it going to bring more 
troops? And I think what they are going to do is bring a better 
coordination and cooperation among these four countries and 
then bring other support from outside.
    And also the other issue is that our special forces unit is 
working very closely with the African Union. So that 
involvement is one element of helping to support and to sustain 
and to close in on Kony and his team.
    Mr. Gast. With regard to your question on the African 
Union, they are certainly playing a very valuable role in 
helping to coordinate on the humanitarian side with the U.N. 
organizations, with the host country governments, and also with 
the donor countries themselves, and also with the EU, which is 
also a major provider of humanitarian assistance to those four 
areas, those four countries.
    But with regard to your question on protection, this is 
something that we have put increased emphasis on over the past 
couple of years, and we appreciate your earmarking of some $5 
million in 2012. Most of that assistance will be going into 
supporting protection programs mainly in the Central African 
Republic where we feel that there is a gap at this time.
    With regard to specific activities that we are doing in 
enhancing civilian protection, it is certainly on the 
humanitarian side, going in, providing relief services, also 
providing psychosocial health services, and then reintegration 
services livelihoods.
    But one of the innovative things that we are doing with the 
State Department and with the international community and also 
with the Catholic Church is the early warning system. We will 
be working with 24 communities in the LRA-affected areas of 
Orientale Province in the DRC, and in those areas there are 
about 60,000 inhabitants. And the early warning system is one 
critical component that we found missing, how do we alert 
villages that an attack or guerillas may be on the way, how can 
they enhance communications between the villages. So that is 
something that we are doing.
    We are also working Vodaphone in a private partnership. 
Vodaphone will be providing the retail services, and we are 
going to help with some state-of-the-art, low maintenance cell 
phone towers that we will be putting out in the eastern DRC to 
facilitate additional communication so that community 
protection committees can then get in touch with either U.N. 
forces, either with their own government forces, or with other 
villages.
    Senator Coons. Thank you, Assistant Administrator Gast.
    Deputy Assistant Secretary Dory.
    Ms. Dory. Senator Coons, on the issue of the growing AU 
role, I think we can only express our optimism at this point 
that they are increasing their role, going from declaring the 
LRA a terrorist organization at the end of last year to now, 
the designation of an envoy, the gradual mobilizing of forces 
to bring to bear. I think a parallel is interesting to consider 
when you look at Somalia. In the first instance, the neighbors 
are the ones who feel the impact and act first, but then over 
time, the full force of the AU is brought to bear, as we have 
seen with the AMISOM mission. I think we could envision that 
that is a possibility for the counter LRA mission as well so 
that it is not a rebranding exercise. It does become more than 
the sum of the existing parts.
    Senator Coons. Is it clear yet whether there will be 
additional troops actually deployed under the AU umbrella or is 
this still a work in progress?
    Ms. Dory. I think this is still very much a work in 
progress. We see encouraging signs of shuttle diplomacy 
happening among all of the different leaders in the region at 
the political level, at the military level. So I think I would 
say stay posted.
    Senator Coons. And then if I could, just a closing question 
to all three of you. Both what could we, as concerned and 
engaged Senators, do to be more supportive of the effort 
multilaterally and then what could anyone watching or 
interested do to continue to be supportive? If you would first, 
Deputy Assistant Secretary Dory.
    Ms. Dory. Thank you.
    In the first instance, the continuation of the bipartisan 
support for this mission is fundamental and this hearing today 
demonstrates that yet again. So we would just thank you for 
that support and sustained engagement. The visits to the region 
that helped bring back the personal witness of what you have 
seen, how you have observed the U.S. Government comprehensive 
strategy in action, again just to encourage that.
    We have talked about the expansion of the State 
Department's rewards program already. The Department of Defense 
fully supports that expansion.
    The sustainment of the title 22 appropriations that are so 
key to the efforts for many years now and going forward.
    And then just the support from your last question, 
encouraging the role of the U.N. and the African Union as they 
increasingly come on line going forward.
    Senator Coons. Thank you.
    Assistant Administrator Gast.
    Mr. Gast. Very similar. One is continued hearings and 
speaking out on the issues, as you have done. Visits to the 
region certainly help. And third, resources.
    Senator Coons. Last, Ambassador Yamamoto.
    Ambassador Yamamoto. Again, thank you very much, Senator, 
what you have been doing with the legislation, our Rewards for 
Justice. Your videos, your outspoken advocacy is important.
    And also the efforts of Mr. Ben Keesey and others at 
Invisible Children has been very supportive.
    And also in continuation on their civilian protection and 
what we can do is really work with the regional states because 
they are the ones that are taking the lead, are taking the 
hits, and doing the battles and the fighting and the 
protection. I know that the Ugandans, for instance, in the last 
couple years have devoted about $50 million for reconciliation 
and protection, and Earl and his group and the U.S. Government 
has done about $500 million since 2008 just for protection and 
humanitarian assistance. So those are things that are 
continuing in support, and those are really critical issues.
    Thank you.
    Senator Coons. Terrific. Thank you very much. I just want 
to thank our first panel. I am grateful for your testimony 
today and for appearing before the committee both for your 
thorough and detailed written and prepared testimony and for 
your availability to answer questions. I very much look forward 
to continuing to work with you as we sustain this very vital 
multilateral mission in central Africa. Thank you very much.
    We are now going to turn to our second panel, and I see 
that we have a guest, Senator Mary Landrieu, who I am going to 
invite to come and join us in introducing our second panel. And 
as our first panel is preparing to leave, I just want to 
suggest that we might show a short video. We have prepared just 
a summary of video that has already been made available that 
helps highlight the stories of Ms. Jolly Okot, who is now the 
Regional Ambassador for Invisible Children, who I invite to the 
table, and Mr. Jacob Acaye whose stories have inspired millions 
around the world. If you would join at the table Senator Mary 
Landrieu.
    [The transcription of the video follows:]

    Jason Russell. It's been almost 10 years since Jacob and I became 
friends. But when my friends and I first met him in Uganda in central 
Africa, it was in very different circumstances. He was running for his 
life.
    You go to school here?
    Jacob Acaye. Yes.
    Mr. Russell. Yes? That's how you know English so well?
    Mr. Acaye. Yes, I know.
    Mr. Russell. How many nights have you stayed here?
    Security Guard. Hello. Hello. You are making our work here very 
difficult. You stop that thing now.
    Mr. Russell. The night I first met Jacob, he told me what he and 
the other children in northern Uganda were living through.
    Mr. Acaye. We worry. The rebels, when they arrest us again, then 
they will kill us. My brother tried to escape. Then they killed him 
using apanga. They cut his neck.
    Mr. Russell. Did you see it?
    Mr. Acaye. I saw it.
    African boy. We fear that if we sleep at our home, we can be 
abducted by the revels because our home is far away from town.
    Mr. Acaye. They will catch us. Then they will take us there in the 
bush. We come here to save our life.
    Mr. Russell. What is it that you want to be when you grow up?
    Mr. Acaye. For me, I wanted to be a lawyer, but I don't have money 
to pay my school fees so that I learn and then become a lawyer.
    Mr. Russell. After spending a few weeks with Jacob, he told me 
something I would never forget.
    Mr. Acaye. So it is better when you kill us, and if possible, you 
can kill us, you kill us. For us, we don't want now to stay.
    Mr. Russell. You don't want to stay on earth.
    Mr. Acaye. We are only two. No one is taking care of us. We are not 
going to school, so----
    Mr. Russell. You would rather die than stay on earth?
    Mr. Acaye. Yes.
    Mr. Russell. Now? Even now?
    Mr. Acaye. Even now. How are we going to stay and have a future?
    Jolly Okot. The world should know that this war is complex. If it 
wasn't complex, it wouldn't have stayed for 26 years. I have been in 
the forefront from day one with the filmmakers. I felt that this can be 
an opportunity for someone else to see what was in northern Uganda. I 
felt that let's do something and let the world know. That is why our 
advocacy has been very strong.
    Narrator. So while Jolly launched Invisible Children's programs on 
the ground, we came home and in 2005 began telling true stories with 
our friends affected by LRA violence because we have seen that stories 
can change lives.
    [End of video.]

    Senator Coons. Thank you.
    Now, I am in awe of Jolly and Jacob's courage and strength 
and indeed agree that their stories have touched and saved 
millions of lives just by participating in these videos. I am 
certain that you have had that global impact. And now I am 
grateful that you have the opportunity to join us here today.
    I would turn to my good friend and colleague, Senator 
Landrieu of Louisiana, to introduce our distinguished panel. 
Senator Landrieu has been an outspoken, engaged, and effective 
advocate on these issues for many years. I am honored she could 
join us here at the committee hearing today because in a very 
real sense, it is because of her that we have had the 
opportunity to have you with us today.
    Senator Landrieu.

              STATEMENT OF HON. MARY L. LANDRIEU,
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. I sincerely 
appreciate your leadership as the chair of the African 
Subcommittee on this very important committee of the United 
States Congress to use this platform and your time and 
attention to build support for those suffering the atrocities 
going on in this part of the world.
    They may not be the greatest, most widespread atrocities, 
but they are atrocities nonetheless, and they have been brought 
to our attention in a very special and significant way, through 
the voices of children. It is very unusual for children of the 
world. Maybe it has been done before in this way. I am not 
sure. But this issue, with hundreds and millions of children 
around the world, led by a child himself, has brought these 
atrocities to our attention. And that in itself, Mr. Chairman, 
should be honored.
    We struggle to make democracy relevant to the children in 
our country. We struggle to make democracy make sense to people 
in the world who are not used to it. And it is moments like 
these that need to be captured and promoted. When children, not 
even able to vote, can recognize truth when they see it and, if 
given an opportunity, will press and use the rights that we try 
to start teaching them in kindergarten, but by honoring their 
words in middle school and high school, we strengthen and make 
true what we say to them not only as parents but as Senators.
    I was led to this by two children, one, my niece, Kelsey 
Cook, who is now married and her husband is serving overseas. 
But when she was 14, she told me about a friend of hers that 
was going to school with her, Johannis Oberman, who was working 
for an organization that was trying to help the night walkers 
in Uganda. Of course, I had read about them and had been 
working with orphans in that country. And she said, Aunt Mary, 
could you do something? And I said, well, yes, I will try.
    So I began work here with other Senators and then, as you 
know, traveled to Uganda myself and met the UNICEF Director, 
Carol Bellamy, at the time. We tried to get to the northern 
part to actually see the night walkers. But when we were there, 
one of the priests who had been their great advocate--Episcopal 
priest--had been murdered by the Kony forces and our State 
Department did not allow us to go.
    But we came back and you know that some of us have been 
working over the course of the time to help. I have stayed in 
touch with Invisible Children and the nonprofit that was 
created after the plea that Jacob said to Ben, who is here in 
the audience. He looked at Ben--and you saw it on the video. He 
said, Ben, I would rather die than live on an earth with no 
justice. And he is absolutely correct, Mr. Chairman.
    And the sad thing is there are millions and millions and 
millions of children and families living in places where there 
is no justice.
    And this might not be the greatest atrocity that ever 
occurred, but it is most certainly worth our time and worth our 
action. I do not know what the State Department said, but I 
hope they have stepped up their efforts. I do not know what the 
Defense Department has said. I hope they step up their efforts. 
And I hope that your committee and the work that we can do here 
will keep the focus on this tragedy, will stop this raging 
maniac of a terrorist who believes that he is being led by some 
higher spiritual calling which, of course, is not related to 
any church or religion that you and I would be familiar with, 
but evidently there is some higher spiritual calling that 
empowers him to slice 5-year-olds in half in front of their 
mother and then drag the brother and sister into servitude, 
that allows children or forces children to kill their own 
fathers in front of their family by slicing them to pieces and 
then terrorizes children. I have never really truly in my life 
ever heard of such horrors.
    And the fact that all the governments of the world cannot 
seem to catch him and to bring him to justice is a real 
puzzlement to me.
    But I am going to turn the mic over to two people who are 
far more eloquent on this subject than I am who have literally 
given their life for this cause. And with the Invisible 
Children--that is one of the greatest NGO's I have ever known, 
and they have my full and complete and undying loyalty to the 
work that they do to inspire children to act and respond.
    I want to introduce you to Jacob who has been presented in 
the video. But at the age of 11--now Jacob is 21. He is 
studying to become a human rights lawyer. I am confident that 
he will be one of the greatest human rights lawyers ever to 
practice on the planet. He was one of the 41 youth taken from a 
Ugandan village by Joe Kony. Fortunately, Jacob escaped. He can 
tell you how, and his moving story is the emotional centerpiece 
of the video that you just saw.
    I want to also recognize Ms. Jolly Okot, who is the on-the-
ground coordinator for Invisible Children. She is the former 
Ugandan Country Director. Now she is working in a more regional 
way because, as you know, we believe Joe Kony has left Uganda 
and is now terrorizing an area the size of France in the middle 
of a jungle with very few roads. But you know, he can be caught 
if we would put our mind to it. And just by catching him and 
his few followers, this whole reign of terror for 25 years 
could come to an end. This is not, contrary to what some of the 
experts say, that complicated in my opinion.
    Among her many qualifications, Jolly holds a degree in 
business administration, is experienced in program development 
and coordination and logistics. How she has managed to continue 
all of this work all of this time is beyond me. She is focused 
on all children, but particularly girls in the subregion of the 
country.
    And I will close with this. If we cannot find and honor the 
voices of the children in our country, your daughters and my 
daughters--the second child was my own daughter, Mary Shannon 
Snellings, who came home from Easter break this year and said, 
``Mom, do you know Joe Kony?'' And I said, ``I know you don't 
think your mother knows much, but I do know Joe Kony.'' And we 
talked about it. She encouraged me to watch the video which 
inspired me to reenergize myself.
    So, Mr. Chairman, I thank you. Let us stay energized. Let 
us not have to rely on our children to shake our conscience to 
stay energized.
    And I turn it over to these two extraordinary people. And I 
thank again Invisible Children and the leaders that are here 
representing this extraordinary nonprofit and the work that 
they are doing to bring truth to the eyes of the world by the 
voices of very small children.
    Senator Coons. Thank you, Senator Landrieu, and thank you 
for your long and effective and engaged advocacy on this issue, 
for bringing the voice of the children who have touched you, 
your daughter, your niece, and help to encourage and inspire 
work by this subcommittee and by all of us in the Senate. Thank 
you for your legislative leadership as well. I very much look 
forward to working together over the long haul to restore a 
sense of justice and security to the children all over the 
world who have been haunted by this.
    And let us now turn, if we could, first to Ms. Jolly Okot 
and then to Mr. Jacob Acaye.
    Jolly.

    STATEMENT OF JOLLY OKOT, REGIONAL AMBASSADOR, INVISIBLE 
                   CHILDREN, KAMPALA, UGANDA

    Ms. Okot. Thank you so much, Mr. Chairman. I would like to 
appreciate so much the big efforts that you have made to make 
sure that this will come to an end. It has been going on for 
the last 26 years.
    I want to thank Senator Isakson for personally being 
involved. When I met you in Gulu, I was also touched to see 
that.
    And I want to thank you, Mary, for the passion you have to 
ensure that the children who are still suffering in the hands 
of Joseph Kony get rescued and also get a second chance, like 
the way I am right now.
    And I want to thank the U.S. Government so much for being 
involved and putting this agenda on top of all the other issues 
that they have. It means a lot to us. That has shown that there 
is a lot of love for the people, especially the people of 
northern Uganda, Central African Republic, and Democratic 
Republic of Congo.
    I want to share my personal story. I grew up in northern 
Uganda, and from day one, when this war started, I saw as it 
transitioned to what is now called the LRA. And I lost my 
teenage years to this war. I could not finish it up because I 
got involved, I would say I got abducted, and started fighting 
alongside the rebel group. That was my life as a young girl. I 
got so tortured so much, and repeatedly, I was raped.
    And today, when I go back to my community, I am still being 
called the market officer because I was being forced to go and 
get money and food forcefully for the rebel group. And up to 
today, as much as I try to transform my community, I am still 
filled with guilt of what I did more than 20 years ago as a 
child and as a child soldier.
    For the past 26 years, you know, it has been very hard, but 
not only on me. I am just one person, but there are thousands 
and thousands of people who have their own stories to share 
about what has happened with the LRA.
    When I left my village after being adducted, I escaped and 
I rescued my dad, and we walked for 60 miles to look for 
safety. The LRA retaliated in my village, first of all, by 
killing my uncle who was taking care of our property, and then 
second, in one night, I lost 21 of my cousins, because my 
parents come from a family of seven people and each one of them 
had an average of about five or six children. And these are my 
cousins that I grew up with, but I entirely could not see them 
after that one night.
    And as I talk, their graves are still shallowly buried, 2 
months ago when I went there, I asked my dad: ``I said why 
cannot we re-bury these people properly?''
    So, this pain is still in me, and then I still see the same 
pain happening in Central African Republic. And that is why I 
still stand very loud and why I said this war has to come to an 
end no matter what it takes.
    When I went to Congo last year, toward the end of my trip, 
I met up with the victims. What touched me the most was a young 
girl, who was 14 years old who came, and when I turned to her, 
I said I thought she speaks French as we do not share any 
language with the Congolese people. But when I turned to her 
and I started speaking to her in Acholi, and she turned to me, 
answering me in Acholi. That made me break down because I 
exactly saw in her eyes what happened to me when I was growing 
up, and that became very, very hard on me.
    And then, when I met up with a group of women who were in a 
workshop in a civil society meeting, I could see in their eyes. 
I was the only Ugandan seated there, and all of them had these 
questions of like, ``why are we being fought by this one guy, 
Joseph Kony, that we do not understand?'' And the thing that 
they raised, they said, ``Our voices cannot be heard. How did 
you people do it, so that the world heard your voice, and now 
the war in northern Uganda is able to get it stopped?''
    And one thing that they all said was that because their 
voices cannot be heard, they feel that this is a trick of 
eliminating their ethnic group, which is the Azande Tribe. 
Because when you look in Central African Republic, Sudan, and 
Congo, it is only the Azande Tribe. that Joseph Kony is 
apparently harassing. And this was very difficult for me, 
especially hearing it from them. And I told them, ``You know, 
there are people out there who can listen. We need to do 
advocacy and we need to speak loud so that your voices can be 
heard.''
    And I have dedicated my life to work for these young people 
right now, even if northern Uganda is relatively peaceful. But 
when I go to the Congo, and see the Congolese girls who have 
come out, speak to them in my own language, and to the people 
from Central African Republic, I want to urge the world to 
stand strong. The war of the LRA, whatever approach it is going 
to take, we need to take a holistic approach of making sure 
that this will come to an end. Because if we do not do that, 
there are people who are suffering every day in the same life.
    One thing that I ask the world, is to come strong--and I 
want to appreciate the effort of the U.S. Government--if we had 
an HF radio a long time ago, I would not have been abducted 
because the information would have come to me early enough and 
then I would have heard. If I had, you know, a communication 
that could stop me from going out, I would not have suffered as 
a girl.
    And then I ask also the international community to push the 
Governments of Central African Republic, Democratic Republic of 
Congo, Sudan, and Uganda to take ownership so that the 
population, the local population, whose voices are not being 
heard. If you narrate it, the world cannot understand, but the 
life there is so difficult, especially seeing young kids who 
their future have been lost. So that pressure can help the 
intervention of eliminating Joseph Kony.
    I know that time is not so much on my side. But I know that 
this is a story which is very difficult, and why I appreciate 
the effort of the American Government. And yesterday, when I 
heard the President speak, I was very, very impressed because I 
relate with my own story. One day, when my son was 12 years, 
called Davis, read a story about me in the African Woman 
magazine, he asked my Daddy, ``Daddy, where were you when Mommy 
was being taken? Mommy, couldn't Daddy protect you?'' And that 
is what has compelled me to do what I do today, no matter what 
it will take. There are people out there that have their own 
opinions about how this war has to be ended, all those opinions 
can be taken together, but we have to give a timeline because 
the atrocities will not end unless the perpetrators are brought 
to book.
    So, I think briefly this is what I have to share. My story 
is very big. I cannot share it within a short amount of time, 
but this is briefly what I have to share with people out there 
and people in this house. Thank you so much.
    [The prepared statement of Ms. Okot follows:]

                    Prepared Statement of Jolly Okot

    My name is Jolly Okot and I'm an Acholi from Uganda who has seen 
the effects of war firsthand. I grew up with Joseph Kony as children in 
the same village, not knowing what he would one day turn into.
    In 1986, as a teenager, I was walking the 10 miles home from my 
boarding school in northern Uganda, and came across a roadblock set up 
by a group of rebels. They detained me, and I began to hear gunshots. I 
turned to see a commander draw a pistol and shoot two people in their 
feet. This was my introduction to what was then called the Holy Spirit 
movement, and what soon after took shape as the Lord's Resistance Army. 
That day, I myself was abducted.
    I spent the next 2 years with the rebels, forced to fight, forced 
to steal from my own people at gunpoint, and repeatedly raped by 
commanders.
    When I finally managed to escape, the LRA retaliated by going to my 
village and killing my uncle. A year later, they returned to my village 
and killed 21 of my cousins in a single night.
    What was done to my family is still happening today in central 
Africa. The LRA started out as a popular rebellion in northern Uganda 
to overthrow the government, but they quickly lost support as Kony 
attacked our own people, abducting children as young as 5 to join his 
ranks. Since 2006, the LRA has been pushed out of Uganda, which is now 
peaceful. Yet Kony continues to terrorize communities in the Democratic 
Republic of the Congo, the Central African Republic, and South Sudan.
    As a Ugandan who grew up with Kony, it is especially painful to 
witness this conflict now impacting Uganda's neighbors. Kony has no 
achievable political agenda; he and his top commanders are fighting 
only for survival, and they are doing it at the expense of the local 
population. Since 2008, the LRA have killed over 2,400 people in 
central Africa, and abducted over 3,400 others. Nearly a half a million 
people are currently displaced in the region, still living in fear. 
These people are living in the remotest parts of the countries, and 
their own governments have done little to stop the LRA. Late last year, 
I heard testimonies from many local leaders during a civil society 
workshop held in Dungu. People came from DRC, CAR, and South Sudan, and 
nearly all of those in the workshop are part of one ethnic group, the 
Azande. Because of the inaction of regional government on the issue, 
delegates expressed the feeling that the LRA war is an attempt by their 
governments to eliminate the Azande people. It is being perceived by 
the local population as an attempt at genocide.
    I have dedicated my life to working with communities affected by 
LRA violence. After I escaped abduction, I went back to school, 
realizing that education is the key to creating change. I began 
supporting Sudanese refugees and started working with organizations 
such as Oxfam, MSF, InterAid and UNHCR before meeting the founders of 
Invisible Children and taking on the role as the director of Invisible 
Children's programs in Uganda. For the last 2 years, I have helped to 
expand programs in DR Congo and CAR to work directly with the currently 
affected population.
    This past December, I was in the town of Dungu, DRC meeting with 
women's groups from South Sudan, Congo and Central African Republic. In 
the meeting, most of them discussed the level of atrocities committed 
by the LRA in their different villages. I met with several girls who 
had just returned from abduction, and when they talked to me about what 
they had gone through--being given forcefully as wives to commanders--
it broke my heart. It was a fresh reminder of exactly what I had gone 
through, and what we in Uganda suffered for two decades. I met a young 
Congolese girl of 14 years who had been abducted by the LRA. Coming 
from Uganda, we don't share even a single word in our languages, so 
normally having a translator is necessary to communicate. But when I 
met this young Congolese girl, I found that she spoke my language 
perfectly, as a result of her time with the LRA. It was shocking to be 
in a foreign place, seeing such a high level of trauma, and realizing 
that the language spoken by the LRA had been exported to innocent young 
people in Congo. It made me realize that these people from South Sudan, 
Congo, and Central African Republic are my brothers and sisters, just 
as much as my Ugandan brothers and sisters. They are suffering the same 
terror that we suffered for so many years. Although Kony has moved out 
of northern Uganda, he is still terrorizing innocent victims and we 
must join together and stand up for them.
    Despite recent advances by the African Union, there has been little 
cooperation between the countries that have been affected by the LRA on 
a joint solution. Victims and local leaders are asking for the 
intervention of the international community--and especially the U.S. 
Government--to encourage better regional coordination, and to pressure 
President Kabila to acknowledge the threat of the LRA and allow 
regional forces the opportunity to pursue them in DR Congo. Likewise, 
the LRA should not be given safe haven in Darfur, or anywhere else in 
the region, and the United States should help diplomatically to ensure 
this.
    As we focus on bringing LRA atrocities to an end, we should embrace 
a holistic approach to bringing to an end to this war that has been 
going on for the past 26 years. Since peace came to northern Uganda in 
2006, we have seen a rapid increase in development. Poverty rates 
dropped from 65 percent in 2004 to less than 45 percent today. I 
acknowledge the great support of the U.S. Government and the American 
people on the ground. There is a lot that has been done to support the 
victims of the LRA directly through USAID, U.S.-based NGOs and private 
funding from young people across the country who have supported 
Invisible Children and our local partners to carry out life-changing 
work. Recently, young Invisible Children supporters have raised funds 
for the expansion of 27 high-frequency radios that provide an early 
warning of LRA attack to communities in the countries where the LRA now 
operates. Young people have funded the region's first rehabilitation 
center in DR Congo, and they have helped us to fund construction of 
community-led FM projects that encourage safe LRA defection. Young 
people--particularly young Americans--are changing the landscape for 
LRA affected communities, and they should be commended for their 
dedication and enthusiasm.
    The United States has been at the forefront of international 
efforts, and we have welcomed this leadership. But progress has been 
slow to reach the ground, and in some areas altogether absent. More 
efforts are needed, especially in currently affected areas like 
southeast CAR.
    Defeating Kony requires more than just seeing his arrest. LRA 
forces survive by exploiting the remoteness and lack of infrastructure 
in the areas of operation. Addressing this requires a multifaceted 
approach. I speak on behalf of the victims in central Africa to call 
for four things in particular. One, increased civilian protection, 
including early warning systems and infrastructure projects like the 
rehabilitation of key roads. Two, expanding demobilization, 
disarmament, and reintegration (DDR) efforts, particularly in CAR, 
where FM radio broadcasts and leaflet distribution can be effective at 
encouraging peaceful LRA surrender. Three, increased support for 
rehabilitation and reconstruction initiatives, ensuring that the 
highest levels of trauma can be addressed. And finally, strengthened 
intelligence and logistical support to the regional forces pursuing top 
LRA leadership. The deployment of advisors has been a positive 
development in this regard, though we have received numerous reports 
that there should be fewer restrictions in their mobility to provide 
better support to regional efforts in the field.
    Now, words have to translate into results. The solutions being 
discussed should be acted upon swiftly and courageously, so that peace 
can be restored to the region. The world is watching and waiting to see 
what will happen this year, and we have the opportunity to join 
together, after 26 years, to deliver the results.

    Senator Coons. Thank you so much, Jolly. And thank you also 
for your written testimony which goes into great detail about 
your personal sufferings and experience and your tremendous 
work of recovery and then of regional strength and then of 
investing your life in making sure that others do not suffer 
similarly.
    Mr. Acaye, if you would----
    Senator Landrieu. Mr. Chairman, may I just say before Jacob 
speaks, I am going to have to leave to go to an Energy and 
Water markup, of which I am one of the ranking members, and I 
am going to have to leave. But I am so grateful for Jacob for 
telling his story. And I thank this committee again.
    And I want to mention Resolve as well, which is one of the 
nonprofits that has been working closely. They are here in 
Washington with Invisible Children.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you so much, Senator Landrieu, for 
joining us today.
    Jacob, Mr. Acaye, if you would like to offer your testimony 
today.

 STATEMENT OF JACOB ACAYE, FORMER LRA ABDUCTEE, GULU DISTRICT, 
                             UGANDA

    Mr. Acaye. Thank you so much, Mr. Chairman.
    On behalf of the survivors and those who are still going 
through hardships in Central African Republic, Congo, and 
Sudan, I want to testify and share my story in the struggle of 
bringing this war, which has lasted for more than 2 decades, to 
an end.
    Being someone who was born during the war, I went through a 
lot. And some of them were directly to my life and some were 
indirectly. And when I say ``indirectly,'' I mean it has 
touched many of my friends, relatives, and people like Jolly 
Okot--she is here right now with me--and many of the people who 
are back at home.
    And I will basically go into the direct way which it has 
touched my life and try to connect to the many who it touched 
as well.
    At the age of 12, I was abducted from my village by the 
Lord's Resistance Army and taken to serve as a child soldier. 
And the way I was abducted was that the rebels came at around 
midnight, just in the middle of our sleep, and they broke down 
our door and got inside where I was sleeping with my cousin, 
and tied us up. And they also went ahead and woke my parents 
who were sleeping the next door over, and they saw us being 
taken. But knowing that the rebels' orders were always final, 
they could not do anything that would stop the rebels from 
taking us away from them.
    And we walked through the whole night, because always, when 
they do attack one place, they try to go far away as fast as 
they can because they know the next morning someone might be 
following them up. So we walked through the whole night and we 
continued walking like that for the next 3 days. We were in the 
next district which was neighboring to Gulu, and that was 
Kitgum District, which is about 90 miles away from my village.
    And when we got there, it was surprising that I actually 
met with my brother who was abducted a year before mine. That 
was in Tusanwan. And I was shocked to see him again, because I 
had stayed for a whole year not knowing where he was, not even 
expecting to see him again. But when I saw him, I again became 
a little happy. I was like, ``Wow, so I can see my brother 
again today.''
    And a week after staying together with him--my brother had 
always been thinking of escaping and coming back home, but it 
is so hard to do it because someone who brought you forcefully 
knows that you are likely to escape. And he tried it. 
Unfortunately, the same group recaptured him in a few minutes 
after had tried to escape. And they brought him back to where 
he tried to escape. And to scare us, who have been abducted 
alongside the 42 kids who were with us, they said whoever tried 
to escape will suffer as an example to those who are still here 
in order to encourage them to not to try to escape.
    And when they brought him back, they tied him. They knew 
very well that he was my brother, and they tied him. They 
killed him in front of us when we were seeing. It was so hard 
in my sight. And when I saw that happening, I could not cry 
because they would think that I would have that negative 
feeling toward them and escape as well. So I was to pretend and 
act as if I was liking what they are doing which was so hard on 
my sight.
    But the next day, we met with a group that came from Sudan 
that brought ammunition. We call it bullets. But I think the 
group that abducted us was running short of ammunition. So, the 
next group that came from Sudan came and brought just 
ammunition. And their commander wanted someone who was young to 
carry for him a chair. And by then I had stayed with this group 
that had abducted me for like--that was the second week. And 
then this guy came and the commander came and was interacting, 
talking with the other commander who abducted me. He asked him, 
``Do you have any kid who can come and help me carry my 
chair?'' The commanders always have small chairs that would 
help them sit in the jungles.
    So me, being the youngest among the group, the person who 
abducted me handed me over to this new guy who came from Sudan. 
``Jacob, you are going to go with this guy, and he is heading 
back to Sudan, I will find you when we get there. Safe travel 
on your way to Sudan.''
    I had no option. I had no decision. I had to go with this 
guy. And for me, when I was going, I felt so bad because when I 
was being abducted, I was abducted alongside 41 kids who, I 
knew them. They were from the same village with me. So I was a 
little bit comfortable with them, we could talk, and be like, 
``OK, there is nothing we can do.'' As much as we wanted to 
escape, it was hard. But then, I was being taken away from this 
group. I was going to the next one--Sudan--where I know nobody. 
So, I was a little scared.
    But at some point, I realized that it was my luck that made 
me come back home, that made it easy for me to escape, because 
they met actually briefly, and they had no time to discuss more 
about me with this commander who abducted me. So while staying 
with this new commander, he wanted to know more from me. He 
wanted to get to know how long I had stayed with the other 
commander who abducted me. Then to gain his trust, I had to lie 
to him because, the more time you stay with LRA, the more 
freedom they give you because they think you are now loyal to 
them. And he wanted to know how long I had stayed with other 
commander. That is when I told him, I said, ``OK, I have been 
with the other commander for like, 3 months, and I am liking 
how you guys operate. And actually, I think I am willing to 
stay.''
    So, on hearing that, he gave me freedom of movement that I 
could do what I want since I have stayed for so long now. I 
know how they operate, but then I should always come early and 
wake him up wherever he is sleeping and carry his chair and we 
go wherever we are going.
    So I did that for like 2 or 3 days, but every time I take a 
new move. Like when he was sleeping here, I made sure to go a 
distance from him and then see if he will react negatively 
toward it. But all the time, he had trusted me, based on the 
fact that I had stayed for 3 months. So, he thought maybe I 
would not do anything, like escaping. So I would go a distance, 
come back, and wake him up, and then I would carry his chair 
and we go.
    I did that for 3 days, and then on the 4th day, we were 
actually heading toward the border of Sudan. And he told me, 
``Jacob, you need to get ready. Tonight we are not going to go 
anywhere. We are going to be in the same position because we 
want everyone to prepare their food. Tomorrow very early in the 
morning, we are going to take a long journey which is going to 
be about 3 days, and if we are resting in between, it will be 
less than an hour. So, you need to pack all what you need for 3 
days, like food because we are crossing the border, and we have 
to go straight to Sudan.''
    So I was like, ``Yeah, that is fine. I have to get ready. 
Is it OK if I stay up late tonight because I want to get 
ready.'' He was like, ``Yeah, you are fine. You just get ready 
because it is not going to be easy.''
    So, what I did was what I had in my mind right from day 
one--that I need to find a way out. I do not need to go to 
Sudan. Fighting is not the way of solving any problem. But I 
could not tell them to their face. So, I thought that was the 
last night that it was going to be possible for me to escape 
because I was going to cross to Sudan, a tribe I did not know. 
The language they speak was different, and it would be so hard 
for me to escape from them, and they would look at me like, 
``These are Acholi people who are from Gulu. They are 
terrorizing us in Sudan, and you escape and come to our 
village.'' It would have been so hard for me.
    So, I had to find my way out that very night. I was so 
scared, but I felt like that was the only chance that I had. I 
should try. And, bearing in mind that if they get me, I will 
suffer as an example. But I decided I would rather die in 
Uganda than go to Sudan and die in Sudan, a country that I have 
never been.
    So that way, I kind of got encouraged and tried to find my 
way out. And the way I found my way out was really hard because 
being a server to a commander, we would always stay in the 
middle of the group, and there were all these intelligence 
officers who would gather and are trained to guard the 
commander. But because of the freedom of movement that I had, 
during that day, I tried to move and see how they were setting 
up, how they were trying to guard the commander. So at least I 
knew where to go and how to dodge the people who were trying to 
guard the commander. So at night, I was trying to move and 
dodge all these things.
    But, I thank God that I made it out and it was very far 
from the IDP camp, Atiak--it is on the border. And it took me 
the whole night walking, trying to find out how I can get to 
the public who can notify--the authorities who can bring me 
back home.
    But I was so happy that when I got to the IDP camp, I had 
that knowledge. At least I knew how to read, and I saw a police 
post. So, I ended there and told them my problem and about how 
I got there. And I was brought back to my village.
    So, when I came back to my village, it was so hard for me 
to sleep and stay in the same house where I was abducted from. 
And I felt like the town was a little safe. The city center was 
a little more safe, and that was where thousands of kids used 
to go and sleep at night because the abductions were mainly 
done during nighttime. So, to avoid being exposed at night to 
abduction, people would go and sleep in the city center. But I 
could not move to stay in town since my parents are still in 
the same place where I was abducted.
    So what I did, alongside thousands of kids, was, every 6:00 
in the evening, we would walk to town, which is about 4 to 5 
miles, and sleep in the city center, and then we would come 
back in the morning.
    So, I did that for about a year. And during the process 
when I was sleeping in the bus park, that is when I met the 
filmmakers. The city center was flooded by kids, all these kids 
who feared the abduction. And when these guys came, they were 
shocked because, coming from the United States seeing how 
children are valued, and then they were in the middle of this 
town where children were sleeping outside in the cold and it 
was raining, they were like, ``Wow, we need to find out why are 
these kids sleeping outside.'' And that is when I kind of felt 
like, oh, maybe they want to know about why we sleep here.
    And it was not my first time doing that. Being someone 
could speak a little language, like a little English, I always 
told these things to journalists who usually came, almost every 
night, from different countries.
    So, when I told these three boys, I did not expect anything 
this big to come. I could never imagine myself being where I am 
right now. But, I just wanted them to know why we were sleeping 
outside. And the fact that they had the camera, was not a big 
deal to me because the camera is like a brother to white men in 
Africa--whoever is going there at least carries a camera. So it 
was not a big deal.
    So these guys, after I told my stories, I think they felt 
touched and they really wanted to help. And they asked me--I 
think you saw the clip in the video--``Jacob, what would you 
want to be and what do you want us to do, how can we help?'' It 
was a very challenging question because I think 80 percent of 
the kids in northern Uganda look at white people as being 
money. So, it was a very challenging question because the first 
thought was like maybe they should give me money and I move 
away from northern Uganda. And I realized that it was not good 
for me to get money because it will not last. You can give me 
thousands of dollars, but remember, I will be spending it, and 
I will not be getting more.
    So, I realized that the way these people could help me was 
to put me in school, and that is what I asked from them. I 
said, ```Put me in school since I want to be a lawyer and try 
to work toward it.'' So, they started paying my school fees.
    And when I met them, that is when I came to meet Jolly who 
brought them to the bus park where we used to sleep, and she 
opened up a scholarship program that has helped thousands of 
kids, me being one of them. And Education has changed my life, 
and I feel like there are still so many who need the same 
thing, after going through what I went through, being put in 
school after coming back and having parents who are displaced--
they had no money to like pay their kids in school since 
education is very expensive. So, all these kids need to go to 
school. And I feel like an idle mind is always a place for the 
devil because I see Kony went to the bush as a frustrated 
youth. And if we leave all these kids to stay at home, it is 
likely that one of them might again go somewhere, like Kony.
    And because of fact that the war is still terrorizing 
people around the world, the same war, I am calling upon the 
world to come up and join the youth who are advocating for the 
end of this war. And I also know that you leaders are our 
representatives, and if there is something that we want, we go 
through you people. And if we send our voices out, then you 
should care about what we are demanding for.
    And then the second thing that I want to say is, I want to 
thank all the people, all the different organizations that are 
working alongside me toward bringing this war to an end. We 
have so many organizations that I cannot mention them now. But 
also thank you guys for letting us share our story and tell the 
world what is going on.
    Thank you very much. I welcome any question. But this story 
is something short--the war has been going on for the last 26 
years. I cannot summarize it all in 10 minutes or 5.
    [The prepared statement of Mr. Acaye follows:]

                   Prepared Statement of Jacob Acaye

    I was abducted by the Lord's Resistance Army when I was 12 years 
old, from my village of Koro, in northern Uganda. The rebels came at 
midnight and broke down the door where my cousin and I were sleeping. 
We were both abducted in the presence of our parents, who could not do 
anything to stop the LRA, knowing that the orders they are given to 
carry out are always final.
    The rebels tied our hands together and we walked through the whole 
first night. They made us keep walking for the next 3 days until we 
reached Kitgum district, about 90 miles away from my village. It was 
here that I met with my brother,
who had been abducted 1 year earlier. It was a shock when I saw him, 
but at the same time it made me so happy to see that he was okay. After 
1 week together, my brother tried to escape, but unfortunately he was 
caught. My brother was brought back to the group where I was and was 
killed in front of me, to serve as example for others who would want to 
escape.
    We then met with another LRA group who brought ammunition from 
Sudan, and the commander of this group wanted someone young to carry 
his chair. Being the youngest, I was selected to go with this 
commander. To gain his trust, I lied about how long I had been with the 
LRA, telling him I had already been with the LRA for 3 months. On 
hearing that, he thought I was loyal to them, and he gave me freedom to 
move. Our group approached the border of South Sudan, and that is when 
I decided to escape. I was so scared. I had been thinking about it from 
day one, but this was the first time I had the opportunity to escape. I 
left while the others were asleep and walked the whole night until 
reaching a large displaced camp called Atiak, where authorities helped 
me get back home to my village.
    When I came back home, I had the fear of being abducted a second 
time, which would have resulted in me being killed for having escaped. 
So I joined the thousands kids who used to walk miles each night to go 
to the town center to sleep, where there was some security. We used to 
sleep at the bus park and under verandas--anywhere in the center of 
town was safer than being exposed to abduction in our village at night. 
This is where I first met the founders of Invisible Children, and I 
told them the importance of education in my future. I knew that 
education was the only thing that could change the situation in 
northern Uganda. Through the filmmakers I met Jolly Okot, the Country 
Director of Invisible Children, who began setting up a scholarship 
program for kids like me in northern Uganda. I joined the scholarship 
program and was supported through my studies for 6 years, alongside 
thousand of other kids from northern Uganda.
    For so long, I thought that I was alone and that our situation was 
forgotten by the rest of the world. I thought people did not care about 
what we were going through or about stopping the LRA. But when I came 
to the United States in 2006 for an advocacy event called Displace Me, 
I was encouraged. Thousands of youth in America came from all over and 
slept outside in the cold, trying to bring attention to what was 
happening with victims of the LRA. Many similar campaigns have followed 
and now the whole world knows about the LRA. The youth from around the 
entire world are demanding that the LRA be stopped.
    Through education, my life has been transformed. Education has made 
me independent, and it has changed my future. As a boy, I dreamed of 
being a human rights lawyer, so that I could fight for others who have 
suffered injustices just as I have. I have traveled the world as an 
advocate, sharing my story and making people aware of what is still 
happening today in central Africa. Now, I am proud to say that I have 
received my diploma in Law, and am working for a law firm in Uganda. I 
am happy to pay forward what has been done in my life to many who still 
need the same.
    I feel I should join the world and do what has been done for me not 
only in Uganda, which is now peaceful, but also to my brothers and 
sisters in the DRC, CAR, and South Sudan, who are now going through the 
same suffering that I went through. Their children are now being taken; 
it is their brothers now who are being killed. I stand before you today 
to advocate on behalf of those in central Africa, to call upon the 
world to get involved in stopping this war, and to urge that we stand 
together to provide a brighter future for the victims of the LRA.

    Senator Coons. Thank you so much, Jacob. Thank you, Jacob, 
and thank you, Jolly, for your testimony which both in writing 
and in speaking is powerful. One of my objectives as the 
subcommittee chair was to include, more regularly in our 
hearings, African voices to help, as we discussed on the train 
the other day, Ms. Okot, strengthen the understanding and 
appreciation in the United States, not just in the Senate, but 
amongst all who watch the committee hearings that many of these 
challenges have African solutions and that the folks who are 
leading and doing the work and in the forefront of responding 
to the atrocities of the LRA are African and are our allies 
whom we need to support.
    As was mentioned by Senator Landrieu and also by you, Ms. 
Okot, I was very pleased that President Obama, in speaking 
yesterday at the Holocaust Memorial, emphasized the ongoing 
commitment and support and ranked the Lord's Resistance Army 
among the great morally challenging atrocities of the last 50 
years and emphasized his commitment to continuing.
    You have both spoken about the importance of being able to 
defect, to escape, and then the previous panel spoke about how 
important that is both so that we have intelligence about what 
is going on within the LRA, but also so that we can help those 
who have been abducted recover.
    I would be interested in hearing from each of you, if I 
could. How can we encourage defectors? How can we help 
encourage and support escapees who are currently in the hold of 
the LRA? What more could we be doing?
    And then second, what more should we be doing to help with 
recovery and development efforts in which you have been very 
active?
    Please, Ms. Okot.
    Ms. Okot. I want to say thank you so much for that 
question.
    The first thing that I think we need to encourage, which I 
think worked very well in northern Uganda, is the effort to 
support the information flow, especially to those who are still 
in the jungle, like building up more FM radio stations and 
sending a message of peace.
    And as well, one thing that we always encourage someone who 
is formally abducted, is that when they have hope that when 
they get back, there is a second chance in life, and this 
second chance comes with a lot of issues here. One, they have 
to be given the opportunity to go back and live as a child once 
again. And then another opportunity that is good and strong is 
that these people need rehabilitation because from my personal 
experience, it took me 10 years to get over it, but up to now, 
I am not completely over it. When I go back to my home, even 
the sight of a tree that I saw 20 years ago is a reminder of 
what happened in my life. But the fact that I got through 
education and I was rehabilitated and now I have a skill and I 
am able to get a job--these are some of the ways that has moved 
me forward very positively.
    And also, one thing that I feel we need is more support 
more in how to reintegrate these people in the community. Today 
as I talk, in northern Uganda, as much as the guns have gone 
silent, there are many more formally abducted who have returned 
home, but have not had the same opportunity as others to 
reintegrate fully and have something to do in the community. 
Imagine a girl who came back with a kid who is very young, and 
these kids are now being called bush children because these are 
kids that were not wanted. How do we as a community, as NGOs, 
as governments, come up with an approach that will help these 
people get an opportunity in life?
    As someone who has taken leadership in the programs on the 
ground, we are trying, but that is not enough. There are many 
people out there. There are social services, which are not 
enough. You know, like roads, especially in Central African 
Republic and the Democratic Republic of Congo--road conditions 
or lack of roads have made it very, very hard for even the 
troops on the ground and the people on the ground to access 
social services so that they are able to move and get the best 
they can have in their life.
    I still say this, as we discussed in the train, as you 
still referred to, I said your voice as American Government to 
the four Presidents of the areas affected by the LRA to take 
full ownership. The Ugandan Government should not turn its back 
because the war is no longer on Ugandan soil. I watch our 
President say we pushed the LRA away. But what about in the 
Congo where it is still very fresh? What about in Central 
African Republic where people are still being displaced? Is it 
enough comfort for President Museveni to say we have pushed the 
LRA away and yet there is another group who are still being 
affected?
    So, I think you putting a lot of force and emphasis on them 
taking ownership and collaborating and bringing their forces 
together to apprehend Joseph Kony is the best way forward that 
I would request you people to do--and be strong on a diplomatic 
approach because when I spoke to the civil societies in CAR and 
DRC, the women there think their voices are not being heard. 
And in that workshop, there are even people who are saying, no, 
the LRA is not a big threat, but every day there are people who 
are sleeping out in the rain. And you can see the fear. There 
are children in Central African Republic that have no future 
and have not been able to go to school. And how do we give them 
a second opportunity? The displacement in Central African 
Republic is such a huge problem. How do we get humanitarian 
intervention into Central African Republic?
    So those are the few questions that I would answer.
    Senator Coons. Thank you, Mr. Okot.
    If I might just interrupt for one moment. Senator Isakson 
has been called to the floor, and he would like to give just a 
brief closing comment. He has to depart. I am going to stay and 
we will continue the conversation.
    Senator Isakson. Well, first of all, Jolly, thank you for 
meeting me in Gulu when I was in Uganda. I really appreciated 
and enjoyed our meeting.
    And, Jacob, your testimony is compelling.
    As I listened to both of you, I reflected on last Thursday 
in the Rotunda of the Capitol where we had the Holocaust 
remembrance and honored a Swede--I am part Swedish--Raoul 
Wallenberg who saved tens of thousands of Hungarian Jews in 
World War II from Auschwitz. And I thought about history is 
littered with individuals who speak out, who take risks, who 
work to right wrongs, and both of you are just in that 
courageous category.
    And I want to thank you for your willingness to make this 
issue visible because, as the chairman knows, out of sight is 
out of mind, and Africa is a long way away from the American 
media. It is a long way away from our country, and some of the 
tragedies that have gone on in that country are terrible. You 
are helping to bring visibility to those issues and that will 
help us ultimately shine the light of day on Joseph Kony and 
bring him to justice. So you both are heroes as far as I am 
concerned, and I appreciate your willingness to do that.
    I have a tough question to ask you, Jolly, but I want to 
ask one before I go back. I know the Sudan is in deep trouble 
in the south now and the north, and there is a possibility of 
further deterioration there. But I also know in Darfur the 
Chadian rebels and Janjaweed and some of those organizations 
use rape against women as a military tactic. Is that what 
Joseph Kony does?
    Ms. Okot. Yes, that is what Joseph Kony does. And as I 
speak right now, Joseph Kony, according to some of the people 
who have defected, including his wife who defected recently, 
has more than 50 wives around him. And the wives are what he 
uses as protection, as a shield. So these are young girls that 
have been raped, and many of them have returned with children. 
So Joseph Kony is still continuously--himself as the leader, 
having 50 wives, and what about the other commanders who have 
even many more wives? So Joseph Kony is still raping and 
abducting children.
    Senator Isakson. The reason I asked the question is that 
one of the good things USAID is doing through its NGOs in 
Uganda that I have personally seen, but also in Darfur, is to 
empower women and to help recognize the abuse that has taken 
place in many places in Africa, like what Joseph Kony is doing. 
In fact, when we were there in Kampala, the day after I met 
with Jolly, we had the Speaker of the House or the Parliament 
of Uganda as a woman, and women are becoming empowered in that 
country and rising to power out of respect and equality for 
them, which is an important thing in a nation that has been the 
victim of people like Joseph Kony.
    And Jacob, I have to leave to make a speech on the floor, 
but you are my hero. Thank you for being willing to tell the 
story. Thank you for being willing to come here. And I do not 
blame you if you want to sit next to a pretty lady like Jolly. 
I would be there too.
    [Laughter.]
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson. As always, you 
are a terrific partner and I am grateful for our opportunity to 
work together on this.
    If I could, just by way of conclusion, since we need to 
bring this hearing to a conclusion. But, Jacob, if you have got 
any input for us on whether you think Joseph Kony and the LRA 
commanders should be brought to justice in Uganda or in The 
Hague--if you have got any advice on what measures are most 
helpful as we try to help those who have escaped or defected to 
rebuild their lives.
    And I, last, just would be interested to hear how it has 
turned out for you, your study of law, your interest in 
becoming a human rights lawyer. And I think many, upon first 
hearing of your personal story in the video, then also are 
hopeful to hear about the progress that you have made in your 
own life, not just in recovering but in becoming educated and 
strengthened and skilled to be able to use your experience to 
fight for justice.
    Mr. Acaye. Thank you very much again.
    I think I will start with what can be done to encourage 
these people to come back home. And being someone who was 
abducted when I was young, for sure, they did try to brainwash 
me, but because I was staying in the IDP camp by the time they 
abducted me, there were some people who were returning from the 
bush; from the captivity with the LRA. So, they were trying to 
tell me that, ``Jacob, you know we bring you here, and when you 
go back home, the government actually will kill you. There is 
nothing like welcoming you people back home.'' And what he does 
most to these kids that he is keeping, he tries to deny them 
access to, media, like radio stations, and all these other 
things that can let them know the truth that is outside, what 
is happening actually when people come back home.
    So these kids--some of them are fighting not because they 
want to stay with the LRA, but because they feel like, ``Now 
that he has forcefully brought us here, the government looks at 
us as being rebels. And when I try to go back home, they will 
just kill me straightaway. So I would rather fight for my dear 
life and die in the battle.'' So thereby, he has been able to 
keep a lot of kids around him.
    And, if there is any way that these kids can be reached and 
by people telling them that, ``I escaped sometime back. I was 
with you, and now I am still living a positive life. I have 
changed my life. I am involved in doing this.'' If these people 
get to know that when you come back home, nothing actually 
happens to you, it will encourage them to come back home.
    And then, the second thing that I want to bring forward is 
that Kony has been able to keep some of the kids because this 
war has been going on for so long, so there are kids who were 
born and raised in the bush, and they have both parents in the 
bush, thereby making it very hard for them to feel like they 
can even come back home because they feel totally comfortable 
there. They are like 18 and their mothers are there with them 
and the father is there. So all they know is fighting.
    So, if there is a way they can be reached and told of 
another type of life, which is coming back home, sitting down 
at a table, and solving things in a good way, that would be a 
perfect way of encouraging them to come back home.
    And on my education side, I am so proud of Invisible 
Children because they made me who I am. When I came back, it 
was so hard for my parents to me back in school because the 
school was expensive, and Invisible Children took the 
responsibility of my parents and made sure that me, alongside 
hundreds and thousands of other kids, went to school and 
pursued our dreams.
    I am still advocating for the rest because Invisible 
Children has been operating for less than 10 years, and this 
war has been going on for the last 26 years. So it has affected 
thousands of kids. But now, it is going to affect more, and 
that is why I feel like we should not leave it to Invisible 
Children and we should not leave it to Enough, we should not 
leave it to Resolve, and all these organizations. We should 
come as a team, as the whole world, and make sure we rebuild 
and heal the war victims.
    So, that is what I feel like me, who has been helped out, I 
should do something to pay forward. And I will only stop paying 
forward when the war ends. So, I would love to stop paying 
forward because then the war will end, and I will have to do my 
things. I will not have to depend on any other person.
    So, I am willing to be a human rights lawyer because I feel 
like we should have value of human rights. People are always 
the same; no matter what color you are, we all have the same 
red blood and we are all born with the same right. So the same 
right that people have in the United States, in China, in 
Sudan, in Uganda, or in Congo has to be promoted by those who 
are in authority. And no matter where you come from, if there 
is a problem somewhere, you are affected in one way or the 
other. So I find that I feel like if I am a human rights 
lawyer, I can reach out to so many people, not only in my 
community, not only in Uganda, but in the whole world.
    Senator Coons. If I could, a last question. Jacob and 
Jolly, what difference do you think it would make to those who 
have been directly affected to those in the countries of the 
region and then to the world--what difference would it make for 
Joseph Kony and his top lieutenants who have been indicted by 
the ICC--what difference would it make for them to be captured, 
removed from the battlefield, and tried? How would it effect 
change?
    Mr. Acaye. I think I will start and then you will conclude.
    I think it will make a very big difference because, right 
now, personally I feel like Uganda is a little safe, and I kind 
of want to forget about the past that I went through, but it is 
very hard. It is not only me, but I am speaking on behalf of 
the victims of northern Uganda. We are trying to forget what we 
went through. But it becomes so hard when you wake up in the 
morning and you hear that people are still being abducted in 
Congo. It takes my mind back to where I was abducted. And if 
someone's brother is being killed in Congo, it takes my mind 
back where I saw my brother being slaughtered. And this is not 
only to me. It applies to all those victims.
    So when this case and this rebel group are brought to 
justice, I think finally and slowly people will forget because 
they will not hear it again in any way. So it will bring a very 
big difference. And there are those who are still living in 
very big fear, and those are the people who are still getting--
it will encourage them when the war ends and the fear that they 
used to live in will actually go away, and they will turn to 
the second version of life of knowing that, oh, I can still be 
someone.
    And personally, I had no hope in my life to the extent that 
I was almost dead instead of living in the industrial world. So 
now that I have received the second type of life that I can 
actually help, I can actually do something--like right now I 
know that all these kids who are with the rebels and all these 
people who are living in fear, if given a chance, they can 
still do something better. They can still achieve their dreams. 
But it is hard because themselves, they do not know that. They 
do not know that they can still have a different life--like if 
they are given a chance, they can still have a life that is 
very positive, that is fit for a human being. They do not know 
about it. And that is what I did not know until when I was 
introduced to school and now I know.
    So the challenge is, how are we going to let them know? It 
is by stopping this war and bringing them that, you know, 
``Look here, you can still do this. You can go to school and 
you will not have to fight to get money. You will not have to 
go and grab people's money. You will have to work hard to get 
what you want, rather than picking a gun and forcing someone to 
give something to you. But, if you work hard, you will enjoy it 
and no one asks for the account. Like the money that they pay 
me right now in my place where I am working--I can actually 
spend it, and do what I want. Jolly does not come and say, 
``Jacob, we are paying for your school fees. You are the 
beneficiary. We gave you this money to go and pay in the 
school. Where is the receipt?'' But it is my money, I work for 
it. I can wake up and say, ``Oh, my leader is here. This is a 
beer. Drink.''
    [Laughter.]
    Mr. Acaye.And no one would ask for it.
    So that is what I want. I want people to be independent. I 
do not wand children to think that they will have to pick up a 
gun to get money, they will have to pick up a gun to get food. 
I want them to work towards it.
    Thank you very much.
    Senator Coons. Thank you, Jacob. It is great to be reminded 
that part of what our President Obama was speaking about 
yesterday was the importance, first, of ending the conflict, 
second, of bringing the leadership to account, but then third, 
of remembering. Even today it is important for us to remember 
the Holocaust, one of the worst atrocities in known human 
history. But in this particular case, in central Africa with 
the Lord's Resistance Army, as we said at the outset, there are 
still attacks going on today. There are still communities that 
are not safe today. There are still children who were abducted, 
as you said, Jacob, who have now grown up in the bush and know 
no other life. Our first order of business must be to end the 
conflict by bringing him to justice.
    Jolly, you have the last word today. How do you think it 
will make a difference for the world? You, yourself, shared 
with me that you knew Joseph Kony as a child, that you grew up 
in the same village. I am sure it was hard to imagine that he 
would turn into this monster he has become. And so on some 
level, ending his violence and his actions would help close a 
chapter and then hopefully bring some justice and then some 
peace and then serve as an example to the rest of the world of 
the possibility of restoring justice. How do you see it? What 
difference would it make if he were actually captured and 
brought to justice?
    Ms. Okot. Thank you so much, Mr. Coons.
    I think bringing Kony to justice will show the world that 
impunity is not a way forward--to let human souls suffer. And I 
think bringing him to justice will, I think in the long run, 
stop people around the world who are so brutal. And people will 
stop thinking that playing around with the lives of a fellow 
human being is the way forward to gain authority and, you know, 
threatening the other people. But, also I think letting the 
world know that justice, when people come together, can be 
brought to anyone. So I think this will also serve to many 
African leaders who have, you know, turned their backs toward 
the local population and they will know that the world will 
also be watching them.
    So, I feel like bringing Kony to justice is one way forward 
of stopping any atrocity in the future that will happen in the 
world. And to me, I feel this is key because I think as much as 
Joseph Kony is still out there at large, I feel that it is very 
important to bring him to books and let him answer for the 
crimes he has committed.
    But, also I think it is a responsibility as well to other 
leaders to realize that it is very, very important, when people 
are in leadership, to also protect the lives of the people they 
lead.
    And I think the coming together of everyone around the 
world and focusing on this one man and bringing him out will 
also, in the future, cause fear to prevent other people who 
might think they should stand up and rise and terrorize people. 
So I think that is the most key, important element.
    And also I think bringing Kony to justice is a way of 
promoting democracy in Africa because I think that is one area 
where we have all these wars springing up because of lack of 
transparency in the government system as well, bring people to 
start fighting amongst themselves. So, I think bringing Kony to 
justice is one way forward that will save so many lives. And 
besides, why is he not fighting his own country? Why does he 
have to take suffering to a country where people have no idea 
why he is fighting?
    Senator Coons. With that, thank you both very much. Thank 
you, Jolly. Thank you, Jacob, for sharing your stories with us 
today, for your personal journey of recovery from being 
abducted by the LRA to turning your personal experiences to 
positive contributions not just to Uganda but to the whole 
world. And we are grateful to Invisible Children, to Resolve, 
to Enough for their very hard work in partnership with you in 
advocacy.
    I am going to hold the record of this hearing open until 
Friday, April 27, for any member of the committee who was 
unable to join us but wants to submit.
    And without objection, I am going to also enter into the 
record a written statement from the Enough Project that they 
wanted made a part of the record of the hearing today.
    Thank you so much for your witness, your testimony, and 
your vision.
    Ms. Okot. Thank you.
    Senator Coons. With that, this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Deputy Assistant Secretary of State Donald Yamamoto and 
   USAID Assistant Administrator Earl Gast to Questions Submitted by 
                        Senator Richard G. Lugar

    Question. A considerable number of programs and accounts provide 
assistance for the USG effort to assist in countering the LRA in 
Central Africa as well as responding to the humanitarian and 
redevelopment needs ascribed to the threat.

  <bullet> Provide a breakdown of all USG assistance for the above 
        purpose from 2005 to the present, including that assistance 
        provided through international and regional organizations and 
        missions.
  <bullet> List the number and home agency of U.S. personnel assigned 
        to manage or implement this multilateral effort, as well as 
        where they are assigned.

    Answer. Over the years, the United States has provided assistance 
to help the governments and people of central Africa in their efforts 
to respond to the threat and impacts of the Lord's Resistance Army 
(LRA). Over the past decade (FY02-FY11), the United States has provided 
more than $560 million in humanitarian assistance to populations 
affected by the LRA in the Central African Republic (CAR), the 
Democratic Republic of the Congo (DRC), the Republic of South Sudan, 
and Uganda. These funds have supported the provision of food 
assistance, humanitarian protection, health, livelihoods initiatives, 
and other relief activities for internally displaced persons, host 
community members, and other populations affected by the LRA.
    In addition to this humanitarian assistance, the United States has 
recently funded projects to help remote communities in LRA-affected 
areas to develop civilian protection plans, better anticipate LRA 
threats, and make their own decisions related to safety. The State 
Department and USAID are spending approximately $1.7 million and $1 
million respectively to fund ongoing projects to help approximately 48 
remote communities in LRA-affected areas of the DRC to develop 
community-based protection plans and connect with other communities 
through a High Frequency Radio Network. In addition, USAID is spending 
approximately $300,000 to launch a pilot project to install four cell 
phone towers in LRA-affected areas to increase the flow of information. 
USAID is also spending $200,000 to establish a community radio 
correspondents' network to increase the availability of accurate 
information on the LRA for local community and humanitarian actors in 
the CAR.
    In addition, the United States has also provided over $750 million 
to support northern Uganda's post-conflict recovery since 2007. 
Northern Uganda has undergone a dramatic positive transformation since 
the LRA's departure in 2006. According to the United Nations High 
Commissioner for Refugees, an estimated 95 percent of people once 
living in internally displaced peoples' camps have now left and moved 
to transit sites or returned home. According to the Uganda Bureau of 
Statistics, poverty in northern Uganda declined from approximately 61 
percent in 2005-2006 to 46 percent in 2009-2010, representing the 
largest decline in poverty for all regions in Uganda during that 
period. Challenges remain, but tremendous progress has been made.
    The Governments of Uganda, the CAR, the DRC, and South Sudan, in 
coordination with the African Union, continue to undertake efforts to 
bring an end to the LRA threat. Over the years, the United States has 
provided assistance to enhance their efforts. Since 2008, the State 
Department has obligated just under $50 million of Peacekeeping 
Operations funding to provide logistical support and limited, nonlethal 
equipment for the Uganda People's Defense Force's (UPDF) continued 
operations against the Lord's Resistance Army. The United States also 
obligated $4.4 million of FY11 1206 funding to provide communications 
and combat engineer equipment to the UPDF for counter-LRA operations.
    In addition, in 2010, the United States provided approximately $13 
million of PKO funding to train and equip a light infantry battalion of 
the Congolese Army, which was subsequently deployed to LRA-affected 
areas of the DRC. This battalion is currently engaged in targeted 
military operations against LRA elements in the DRC, in coordination 
with the U.N. Organization Stabilization Mission in the DRC (MONUSCO). 
The State Department has also provided approximately $300,000 of PKO 
funding to provide two mentors to the battalion who continue to provide 
training and support. We also continue to engage with the militaries of 
the CAR and South Sudan as they increase their counter-LRA efforts. The 
State Department used PKO funds to provide just under $570,000 worth of 
uniforms and other personal gear to the CAR forces deployed to the LRA-
affected area.
    Since October 2011, the United States has deployed approximately 
100 U.S. military personnel to serve as advisors to the national 
military forces pursuing the LRA and seeking to protect local 
populations. These personnel are working in Uganda and in field 
locations throughout the LRA-affected area with partner forces to 
enhance cooperation, information-sharing and synchronization, 
operational planning and overall effectiveness.
    Over the years, the United States has provided significant amounts 
of funding to the U.N. peacekeeping and political missions in the CAR, 
the DRC, Sudan, and South Sudan as part of our obligations as a member 
of the United Nations. From FY05 to present, the United States has 
provided nearly $3.1 billion in assessed contributions to MONUSCO and 
its predecessor, MONUC. During the same period, the United States has 
provided approximately $1.9 billion in assessed contributions to the UN 
Mission to Sudan (UNMIS), and its successor, the UN Mission to South 
Sudan (UNMISS). A fraction of our assistance to these missions goes to 
help their activities and operations in LRA-affected areas.
    There are a large number of U.S. Government personnel that work on 
the counter-LRA strategy and these various programs, as part of their 
regular duties. This includes officers in the four U.S. Embassies in 
the LRA-affected region, the U.S. Mission to African Union, the U.S. 
Mission to the United Nations, U.S. Africa Command, the Defense 
Department, USAID, the National Security Staff, and multiple bureaus at 
the State Department. To enhance coordination and implementation of 
this effort, the State Department has deployed an officer from the 
Bureau of Conflict and Stabilization Operations (CSO) to the region to 
work full-time with our embassies and the U.S. military advisors on the 
counter-LRA effort. CSO has also provided a full-time subject matter 
expert to support interagency policymaking and planning efforts for the 
counter-LRA effort in Washington, DC.

    Question. The region affected by the LRA is considerable as well as 
being very remote and undeveloped. The threat to the region's dispersed 
population is evident.

  <bullet> How does the concept of operations define the ``protection 
        of civilians'' as made preeminent in the President's Strategy 
        and what specific role does the United States have in it?
  <bullet> What means of protection are being considered and what 
        personnel or technological resources will be required?
  <bullet> What expectations are there of the United States by the 
        local population in these remote areas?
  <bullet> What role and what concrete resources are being assumed by 
        other donors, and what are the specific expectations of the 
        countries affected by the LRA threat in this regard?

    Answer. The Lord's Resistance Army (LRA) preys on remote, 
vulnerable populations in the Central African Republic (CAR), the 
Democratic Republic of the Congo (DRC), and South Sudan who lack basic 
protection services and early warning capabilities. The U.S. strategy 
to support disarmament of the LRA, provided to Congress in November 
2010, defines the increased protection of civilians as a strategic 
objective for U.S. efforts. The strategy defines civilian protection as 
``(a) freedom from imminent threat of physical violence and abduction, 
and (b) freedom of movement to pursue livelihoods.'' The strategy 
states that the protection of civilians encompasses civilian and 
military efforts to improve the security and safety of civilians 
exposed to LRA violence, including ``actions to reduce the threat 
itself, to minimize civilian vulnerability to the threat, to reduce the 
frequency of their exposure to the threat, and to increase their 
ability to anticipate and react to the threat.''
    National governments bear responsibility for the protection of 
their citizens. Although they face significant challenges in protecting 
all populations given their limited resources, lack of mobility, and 
the poor transportation and communications infrastructure in the 
region, there are steps they can take to empower communities and reduce 
the risk of large-scale LRA attacks. Although locals have high 
expectations that U.S. involvement will improve the situation, we 
continue to make clear in our public messaging and our private 
engagement with our partners and local communities that the governments 
in the region are in the lead, and the United States is playing a 
supporting role.
    U.S. military advisors do not have a direct operational role, but 
they are seeking to emphasize the importance of civilian protection in 
their engagement with the partner forces. They are integrating civilian 
protection into training and operational planning, and seeking to 
promote greater information-sharing and collaboration between military 
and civilian actors. U.S. military advisors are also coordinating 
closely with the U.N. peacekeeping missions in the region and other 
actors who undertake protection activities. The U.N. Organization 
Stabilization Mission in the DRC (MONUSCO) carries out unilateral and 
joint operations with the Congolese military to help increase civilian 
protection in LRA-affected areas of the DRC. U.S. advisors provided 
information fusion and planning support for a joint operation that was 
carried out in December to help deter the LRA from committing large-
scale attacks in the DRC during the Christmas season, as they did in 
2008 and 2009.
    At the same time, the United States is funding civilian projects to 
help remote communities to develop protection plans, better anticipate 
LRA threats, and ultimately make their own decisions related to their 
safety. In the DRC, the State Department and USAID are funding projects 
to help approximately 48 remote communities in LRA-affected areas to 
develop community-based protection plans and connect with other 
communities through a High Frequency (HF) Radio Network. The Catholic 
Church currently manages an HF Radio Early Warning Network to which 
communities tune in twice a day to share information about LRA attacks 
and threats. In the CAR, USAID is funding a new project implemented by 
Internews to establish a community radio correspondents' network, which 
will increase the availability of accurate information on the LRA for 
local community and humanitarian actors. USAID and the State Department 
are working together to determine how best to utilize $5 million in 
FY12 Economic Support Funds to address further gaps in the region. We 
have determined that programming will focus on the LRA-affected areas 
of the CAR, where the greatest gaps remain, although some funds may be 
programmed in the DRC and South Sudan.
    The United States is encouraging other donors to increase their 
funding for activities and programs to increase civilian protection. In 
2010, we formed an International Working Group on the LRA to enhance 
coordination among all of the international donors and to encourage our 
partners to fill critical funding gaps. We cochair this Working Group 
with the European Union. The European Union and its member states have 
provided considerable humanitarian assistance for LRA-affected 
populations, including for protection activities, and support for the 
U.N.'s efforts in the region. We are working with the World Bank as 
they plan new programs to assist LRA-affected communities. Finally, we 
continue to partner with a number of international and local 
nongovernmental organizations, who have undertaken innovative efforts 
to increase civilian protection.
                                 ______
                                 

   Responses of Deputy Assistant Secretary of Defense Amanda Dory to 
            Questions Submitted by Senator Richard G. Lugar

    Question. Section 1206(b) of the National Defense Authorization Act 
for Fiscal Year 2012 (Public Law 112-81) provides as follows: ``No 
United States Armed Forces personnel, United States civilian employees 
or United States civilian contractor personnel may participate in 
combat operations in connection with the provision of support under 
subsection (a) [relating to support for foreign forces engaged in anti-
LRA operations], except for the purpose of acting in self-defense or 
rescuing a United States citizen (including any member of the United 
States Armed Forces, any United States civilian employee, or any United 
States civilian contractor).''

  <bullet> Have U.S. military personnel deployed in support of anti-LRA 
        operations since October 12, 2011, engaged in combat 
        operations, for the purpose of self-defense, rescue, or any 
        other purpose?

    Answer. Since their deployment began in October 2011, U.S. forces 
have not engaged in any sort of combat operations. As noted in the 
President's report to Congress, consistent with the War Powers 
Resolution in October and December 2011, U.S. forces deployed in 
support of counter-LRA operations are combat-equipped for self-defense 
purposes only and will not engage LRA forces unless necessary for their 
self-defense.

  <bullet> Does the administration believe that U.S. personnel deployed 
        in support of anti-LRA operations should be authorized to 
        participate in combat operations?

    Answer. The advisors are filling the role that was intended for 
them, which is to provide advice and assistance in an effort to enhance 
the capacity of the national militaries that are pursuing the LRA and 
seeking to protect local populations. It is important to remember that 
governments in the region are in the lead of this effort. As sovereign 
states, they are responsible for protecting their citizens and 
addressing threats to their security and we are trying to help them 
fulfill that responsibility.

    Question. In an October 14, 2011, letter to Congress, President 
Obama stated that the total number of U.S. military personnel deploying 
to central Africa to assist the anti-LRA efforts of regional forces 
``is approximately 100.''

  <bullet> What is the number of U.S. personnel currently deployed to 
        central Africa in support of regional anti-LRA efforts?

    Answer. As of the latest operational update on April 18, 2012, 
there were 91 military personnel deployed in support of regional 
counter-LRA efforts.

  <bullet> Does the administration believe there is a need for 
        deployments of additional U.S. personnel in excess of the 
        numbers currently deployed in order to provide effective 
        support to regional anti- LRA efforts? Please describe any 
        current plans to increase the number of U.S. personnel deployed 
        in connection with these efforts.

    Answer. Current force deployments are considered to be at an 
appropriate level, and there are no current plans to increase the 
number of U.S. personnel deployed for counter-LRA efforts.

    Question. President Obama announced on April 23, 2012, that U.S. 
military personnel would remain deployed in central Africa following a 
review of the progress of their mission during its first 150 days.

  <bullet> How long does the administration anticipate that U.S. 
        military personnel will remain deployed in central Africa in 
        support of anti-LRA activities?

    Answer. There continues to be a robust interagency review process 
within the U.S. Government and on-going dialogue with our partners in 
the region to ensure that our military support is having the intended 
effect--namely, enhancing the capacity of the forces in the region to 
succeed in their mission to end the LRA threat.
    While there are no plans at this time to pull back the U.S. 
military advisors, this is not meant to be an open-ended commitment. We 
believe that U.S. forces can provide critical capabilities to help 
regional forces conduct more effective operations against top LRA 
leaders and better protect civilians in the near-term. Our continued 
support is contingent on the continued leadership and collaboration of 
the affected countries in the fight against the LRA.

  <bullet> What is the annual cost of the U.S. military deployment in 
        support of anti-LRA activities?

    Answer. It is difficult to project total annual costs for 
contingency operations that may change according to unpredictable 
factors. That said, our initial estimate indicated the operation would 
cost approximately $4.5 million per month, and recent cost data 
indicate an expenditure rate of about $3.5 million per month for this 
operation. The majority of the cost is for sustainment and airlift 
support for DOD personnel. As for any contingency operation, costs may 
fluctuate from month to month.

    Question. While the President issued a strategy paper on the U.S. 
effort as part of a multilateral campaign to counter the LRA in 2011, a 
concept of operations with particulars was not provided.

  <bullet> Describe the concept of operations as it relates to the 
        strategy the President provided on addressing the LRA, 
        including the responsibilities of U.S. personnel and their 
        bilateral and multilateral partners.

    Answer. The United States is pursuing a comprehensive, multifaceted 
strategy to help the governments and people of this region in their 
efforts to end the threat posed by the LRA, and to address the impacts 
of the LRA's atrocities. To advance that strategy, the United States 
has deployed a small number of U.S. military forces to the region to 
serve as advisors to the partner forces pursuing LRA top leaders and 
seeking to protect local populations. The regional militaries are in 
the lead. They are responsible for protecting their citizens and 
addressing threats to their security, and we are trying to help them 
fulfill that responsibility.
    The U.S. military forces do not have a direct operational role 
against the LRA; they are advising the regional partner forces and 
seeking to enhance their overall effectiveness. Specifically, the U.S. 
military advisors are working to strengthen relationships between 
regional military officials and civilian actors, enhance information-
sharing and synchronization, and help with training and operational 
planning. U.S. forces are also providing planning, training, and 
intelligence support for ongoing Ugandan military operations against 
LRA groups in the Central African Republic (CAR) and South Sudan.
    The mandates of the U.N. Security Council-authorized peacekeeping 
missions in the DRC and South Sudan, United Nations Organization 
Stabilization Mission in the Democratic Republic of the Congo (MONUSCO) 
and United Nations Mission in the Republic of South Sudan (UNMISS), 
include support for efforts to disarm and demobilize the LRA and to 
help protect affected communities. We continue to encourage the U.N. to 
increase its efforts focused on the LRA where possible. The U.S. 
military forces are coordinating closely with MONUSCO as it undertakes 
operations to help increase civilian protection in LRA-affected areas 
of the DRC.
    The African Union (AU) officially launched its Regional Cooperation 
Initiative for the Elimination of the LRA (RCI-LRA) in March 2012. 
Although many operational details are still being worked out, we 
believe the AU's involvement can strengthen coordination, information-
sharing, and trust among the four militaries pursuing the LRA. Our 
advisors are coordinating with the AU staff as they implement this 
initiative. To the extent possible, our advisors are seeking to 
establish sustainable mechanisms that could eventually be taken over by 
the AU or other bilateral or multilateral partners.

  <bullet> Enumerate the equipment expected to be provided and the 
        costs associated with the equipment and the overall costs of 
        the U.S. portion of the effort from predeployment to date and 
        expected over the period of expected implementation as extended 
        April 23, 2012.

    Answer. Proposed assistance to be provided to partner forces under 
the authority provided in Section 1206 of the FY12 NDAA will be 
notified to Congress once approved by the Secretary of Defense.
    The current average expenditure rate for U.S. forces deployed in 
support of counter-LRA efforts is $3.5 million per month.

  <bullet> Provide a timeline as well as any redlines for the United 
        States as it relates to implementation of the strategy and the 
        concept of operations.

    Answer. Consistent with the LRA Disarmament and Northern Uganda 
Recovery Act, the United States is pursuing a comprehensive strategy to 
help our regional partners in their efforts to mitigate and eliminate 
the threat posed by the LRA. This strategy is meant to provide 
direction for U.S. assistance to the region over multiple years. To 
advance that strategy, the President authorized a small number of 
combat-equipped forces to deploy to the region in October 2011 to serve 
as advisors to the national military forces pursuing top LRA commanders 
and seeking to protect local populations. On April 23, 2012, the 
President announced that the United States was continuing this 
deployment of U.S. forces. There is no specific timeline for concluding 
the deployment but our continued support is contingent on the continued 
leadership and collaboration of the affected countries in the fight 
against the LRA, as well as the availability of the necessary 
resources.

  <bullet> Please expand upon your statement at the hearing that ``a 
        comprehensive and multiyear strategy'' has been implemented in 
        addressing the LRA. What is that strategy and what elements of 
        it are the respective responsibilities of State, USAID, DOD or 
        other USG entities?

    Answer. Pursuant to the Lord's Resistance Army and Northern Uganda 
Recovery Act of 2010 (Public Law 11-172), the President submitted to 
Congress in November 2010 a comprehensive strategy to guide the United 
States support across the region for viable multilateral efforts to 
mitigate and eliminate the threat to civilians and regional stability 
posed by the LRA.
    The strategy outlined four strategic objectives for U.S. support: 
(1) the increased protection of civilians; (2) the apprehension or 
removal of Joseph Kony and senior LRA leaders from the battlefield; (3) 
the promotion of defections and support of disarmament, demobilization, 
and reintegration of remaining LRA fighters; and (4) the provision of 
continued humanitarian relief to affected communities. The strategy 
provided considerable details on each of these objectives and 
implementation priorities, including engagement with bilateral, 
regional, and multilateral partners.
    There continues to be strong interagency collaboration to implement 
this strategy. The Department of State leads the diplomatic engagement 
and international coordination necessary to advance and sustain the 
above objectives. The U.S. Agency for International Development (USAID) 
oversees assistance programs to advance civilian protection, 
reintegration of ex-combatants, and humanitarian relief. The Department 
of Defense leads the operation to advise and assist the partner 
military forces in their on-going efforts to apprehend top LRA leaders 
and better protect civilians.
    Pursuant to Public Law 111-172, the Secretary of State submitted to 
Congress in November 2011 a report on implementation of the U.S. 
strategy.

    Question. AFRICOM and CJTF-HOA have become far more prevalent 
actors in Africa and U.S. policy in the region since their inception.

  <bullet> What role and effect does AFRICOM have in security 
        cooperation and how would you characterize the evolution of 
        their engagement over the last few years in the region?

    Answer. USAFRICOM conducts a variety of operations, exercises, and 
security cooperation activities, including the counter-LRA operation 
that focus on building the professional capacity of African forces to 
protect their civilians and address security threats more effectively. 
These engagements help African nations build capable and professional 
militaries and security forces that respect human rights, adhere to the 
rule of law, and more effectively contribute to stability in Africa.
    These engagements are also in line with the January 2012 strategic 
guidance for the Department of Defense, which states: ``Today's 
security challenges require adaptable and strategically targeted 
approaches. Whenever possible, we will develop innovative, low-cost, 
and small footprint approaches to achieve our security objectives, 
relying on exercises, rotational presence, and advisory capabilities.''
    USAFRICOM's core mission remains one of helping to strengthen 
defense capabilities of partner nations. USAFRICOM supports security 
programs that reflect U.S. interests and does so primarily through 
military-to-military activities and assistance programs. This reduces 
the threats to U.S. interests and enables Africans to address their 
security challenges.
    The Command's efforts are centered on two over-arching principles: 
(1) a safe, stable, secure Africa is in the best interest not only of 
the African states, but that of the United States as well; (2) 
Africans, in some cases with partner support, are best able to address 
the continent's security challenges. USAFRICOM recognizes the 
importance of multilateral solutions to many of these security 
challenges and works to promote regional cooperation to strengthen the 
ability of African militaries to work together.
    We welcome the Command's increased involvement on the continent as 
USAFRICOM and CJTF-HOA have built its necessary infrastructure and its 
component commands have found their stride. The U.S. military's limited 
footprint on the continent is welcomed in large measure, the 
relationships it has created are productive, and its partnerships 
spanning the continent are enhanced by its engagements.

  <bullet> Are there any instances in which AFRICOM or CJTF-HOA have 
        failed to maintain communication with the Embassy and Chief of 
        Mission? What has been done to improve their interaction and 
        safeguard U.S. interests?

    Answer. USAFRICOM and CJTF-HOA strive to support key Embassy goals 
and to maintain excellent communication with Chiefs of Mission and 
other Department of State colleagues. USAFRICOM and CJTF-HOA Commanders 
regularly visit nations in the region and engage in dialogue with 
Chiefs of Mission, their staffs, and military personnel at various 
locations. With Department of State leadership, they meet with host 
nation representatives and visit USAFRICOM-sponsored projects to ensure 
that objectives further U.S. goals. CJTF-HOA has a Department of State 
political adviser (POLAD), and it deploys country coordinating element 
(CCE) staff to embassies to represent CJTF-HOA and improve its 
communications. CCEs complement the work of U.S. defense attaches and 
U.S. office of security cooperation chiefs, and are generally colocated 
with them. The CJTF-HOA commander has a biweekly secure teleconference 
with all CCEs, affording opportunities to exchange information that 
facilitates embassy activities.
    To improve coordination further, CJTF-HOA has worked with embassies 
in the region to inaugurate regular ``3D''--diplomacy, defense, 
development--meetings among State Department, USAID, and DOD staff so 
that the three key elements of U.S. policy in Africa are pursued in a 
coordinated manner. These efforts, pursued by dedicated staffs, help 
minimize communications disconnects.

  <bullet> What role and effect has CJTF-HOA had in Uganda? What has or 
        might be improved since their first years in the country?

    Answer. In Uganda as elsewhere in the region, CJTF-HOA conducts a 
wide variety of military-to-military, civil-military, and other 
engagements aimed at assisting the Ugandan Peoples Defense Force (UPDF) 
to enhance stability and security, increase capacity, and offer greater 
support for U.S. initiatives and regional stabilization. CJTF-HOA and 
the UPDF have a particularly close relationship.
    CJTF-HOA works with the UPDF in three areas. At the Kasenyi 
Training Base, CJTF-HOA cooperates with SOCAFRICA to facilitate SOCAF 
Joint/Combined Exchange Training (JCET). In the past, the facility has 
been used for an Advanced Infantry Combat Course (AICC), giving the 
UPDF the targeted field skills it needs for a variety of missions, 
including the African Union Mission in Somalia (AMISOM). At the Singo 
Training Center, CJTF-HOA provides mentors that augment the Department 
of State's African Contingency Operations Training and Assistance 
(ACOTA) program, helping the UPDF prepare for its mission in Somalia. 
Among the courses taught have been those addressing combat life-saving, 
tactical combat casualty skills, and various soldiering and 
peacekeeping skills. Finally, CJTF-HOA operates a civil affairs team in 
the Karamoja region of northern Uganda. This team has sponsored 
projects ranging from civil assistance construction at schools, 
clinics, and hospitals to veterinarian assistance projects designed to 
help the largely pastoralist population in the region. The team is 
preparing to conduct human rights/rule of law training to UPDF units in 
the region and to expand contacts at orphanages and among vulnerable 
youth later this year.
    In addition to activities in these locations, CJTF-HOA continues to 
send traveling contact teams to Uganda to assist in the overall 
security assistance mission of improving capacity and professionalism 
of the host nation forces. Since in-country engagements began, CJTF-HOA 
has become a valued partner of the UPDF.

                                  <all>

</pre></body></html>
